<html>
<title> - VIOLENT EXTREMISM: HOW ARE PEOPLE MOVED FROM CONSTITUTIONALLY-PROTECTED THOUGHT TO ACTS OF TERRORISM?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                   VIOLENT EXTREMISM: HOW ARE PEOPLE 
  MOVED FROM CONSTITUTIONALLY-PROTECTED THOUGHT TO ACTS OF TERRORISM?

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON INTELLIGENCE, INFORMATION
                 SHARING, AND TERRORISM RISK ASSESSMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 15, 2009

                               __________

                           Serial No. 111-48

                               __________

       Printed for the use of the Committee on Homeland Security
                                     



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
56-445 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                     COMMITTEE ON HOMELAND SECURITY


                Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
William L. Owens, New York
Bill Pascrell, Jr., New Jersey
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Eric J.J. Massa, New York
Dina Titus, Nevada
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director

                                 ------                                

 SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING, AND TERRORISM RISK 
                               ASSESSMENT

                     Jane Harman, California, Chair
Christopher P. Carney, Pennsylvania  Michael T. McCaul, Texas
Yvette D. Clarke, New York           Charles W. Dent, Pennsylvania
Laura Richardson, California         Paul C. Broun, Georgia
Ann Kirkpatrick, Arizona             Mark E. Souder, Indiana
Al Green, Texas                      Peter T. King, New York (Ex 
James A. Himes, Connecticut              Officio)
Bennie G. Thompson, Mississippi (Ex 
    Officio)

                    Thomas M. Finan, Staff Director
                        Brandon Declet, Counsel
                   Natalie Nixon, Deputy Chief Clerk
              Meghann Peterlin, Minority Subcommittee Lead












                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Jane Harman, a Representative in Congress From the 
  State of California, and Chair, Subcommittee on Intelligence, 
  Information Sharing, and Terrorism Risk Assessment.............     1
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Intelligence, Information Sharing, and Terrorism Risk 
  Assessment.....................................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     5
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California:
  Prepared Statement.............................................     6

                               Witnesses

Dr. James Zogby, President, Arab American Institute:
  Oral Statement.................................................     7
Mr. Michael Macleod-Ball, Acting Director, American Civil 
  Liberties Union (ACLU), Washington Legislative Office:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12
Dr. Stevan Weine, Professor of Psychiatry and Director of the 
  International Center of Responses to Catastrophes, University 
  of Illinois at Chicago:
  Oral Statement.................................................    19
  Prepared Statement.............................................    20
Dr. R. Kim Cragin, Ph.D., Senior Policy Analyst, Rand 
  Corporation:
  Oral Statement.................................................    32
  Prepared Statement.............................................    34

 
VIOLENT EXTREMISM: HOW ARE PEOPLE MOVED FROM CONSTITUTIONALLY-PROTECTED 
                     THOUGHT TO ACTS OF TERRORISM?

                              ----------                              


                       Tuesday, December 15, 2009

             U.S. House of Representatives,
                    Committee on Homeland Security,
    Subcommittee on Intelligence, Information Sharing, and 
                                 Terrorism Risk Assessment,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 311, Cannon House Office Building, Hon. Jane Harman [Chair 
of the subcommittee] presiding.
    Present: Representatives Harman, Thompson, Carney, Green, 
Himes, McCaul, Dent, and Broun.
    Also present: Representatives Jackson Lee and Richardson.
    Ms. Harman [Presiding.] The subcommittee will come to 
order. The subcommittee's meeting today to explore whether 
there are risk factors or pre-incident indicators of terrorist 
activity identified by intelligence and law enforcement 
organizations to enable them in thwarting attacks while 
preserving--let me repeat that--preserving individuals' right 
to privacy and civil liberties.
    Today's hearing is entitled ``Violent Extremism: How Are 
People Moved From Constitutionally Protected Thought to Acts of 
Terrorism?''
    Ahmed Abdullah Minni was a member of the West Potomac High 
School wrestling team. His coach described him as ``one of the 
last people'' he would expect to turn to terrorism.
    Ramy Zamzam, a 22-year-old Howard University dental 
student, was ``tolerant and engaging.''
    These two young men, along with three workout buddies from 
the local Gold's Gym in Fairfax County, were recently arrested 
in Pakistan allegedly attempting to engage in jihad against 
U.S. soldiers in Afghanistan.
    Their disappearance didn't raise suspicion until one of the 
boys' families found a farewell video soon after, and their 
loved ones frantically contacted the FBI for help in locating 
them.
    To almost all who knew him, Najibullah Zazi was just a 
friendly hot dog stand vendor who liked to joke with his 
customers, not, as it is alleged, an al-Qaeda operative 
plotting an attack on the New York City transit system.
    People didn't know what to make of Major Nidal Hasan. But 
surely no one anticipated that he would carry out the worst 
domestic terrorist attack since 9/11. In each of these cases, 
appearances proved far different from reality.
    Today, this subcommittee seeks to gain understanding of how 
people who seem like anyone else--those who are capable of 
interacting socially with friends and colleagues and, in many 
cases, are athletes and scholars--could be recruited or self-
recruited to train to be terrorists.
    My eyes were opened 4 years ago when a terrorist cell in my 
district--Torrance, California--was thwarted by attentive law 
enforcement.
    Excellent police work enabled authorities to connect the 
dots between a series of gas station robberies and plots to 
attack local synagogues, recruiting offices, and a military 
base. The folks who were planning to do that are now in jail.
    This isn't new subject matter for our subcommittee, either. 
Since early 2007, we have held a series of careful hearings to 
understand how someone with radical views, which are protected 
by our Constitution--let me say that again: radical views which 
are protected by our Constitution--becomes willing to engage in 
violent behavior and, in some cases, to seek to inflict maximum 
harm on the maximum number of innocent civilians.
    Our earlier efforts have been criticized and, in my view, 
misunderstood by some civil liberties groups. We drafted a bill 
creating a commission to examine and report on what causes an 
individual like Major Hasan to attack. It passed the House by 
404-6 in October 2007.
    Only then did the ACLU, a witness at today's hearings, 
which had participated in our meetings, object to it.
    Many disagreed that such a commission should examine 
terrorist recruitment on the internet. Yet press reports 
suggest that at least one of the five Alexandria men just 
arrested in Pakistan posted on-line comments praising YouTube 
videos of attacks on a U.S. Army convoy hit by a roadside bomb 
in Kabul. That is when the alleged recruiter contacted him.
    YouTube videos may have inspired them to travel to 
Pakistan. It also appears, as I said, that the Taliban 
recruiter used coded messages and Facebook to communicate with 
them.
    In his written statement, Mr. Macleod-Ball of the ACLU, who 
has been very helpful to this subcommittee, suggests that 
``protecting our First Amendment freedoms will both honor our 
values and keep us safe.''
    Of course we must protect these freedoms, but we also must 
prevent recruiters from cherry-picking kids from our 
communities and sending them to become jihadists overseas.
    I hope our witnesses can help us to separate the 
intellectual process of committing to a political agenda, 
protected by the First Amendment, from the operational process 
of moving from non-violence to violence, which I am sure 
everyone on this hearing panel agrees is not protected.
    We need to be able to intervene at the right point to stop 
individuals in our schools, neighborhoods, religious centers, 
and jails who are persuaded by extreme violent messaging, 
whether through the internet, friends, or mentors, to commit 
violent acts before it is too late.
    So what are the triggers? The number of Americans who are 
either being recruited or are self-recruiting to carry out 
terrorist attacks here or abroad is growing. So what are the 
triggers?
    Recently, numbers of young Somali-Americans were recruited 
in Minneapolis to join the Al-Shabaab terror network in 
Somalia. Their families were stunned. Two have carried out 
suicide bombings. So what are the triggers?
    Then there is David Headley, the American citizen who has 
now been indicted for his alleged roles in the Mumbai attacks 
last year as well as for plotting an attack on a Danish 
newspaper. This case is doubly important to examine because he 
was an American recruited to attack abroad. So what are the 
triggers?
    In these cases, terrorist organizations not only 
successfully recruited Americans but then provided the 
requisite training to enable those Americans to carry out 
attacks.
    We don't have too many more chances to get this right. 
There is a growing list of people suspected of being recruited 
and ready to carry to terror attacks in our country and abroad.
    If we fail to find the right way to protect both security 
and liberty, the next attack, I fear, could lead to a shredding 
of our Constitution, something none of us want.
    I want to welcome all the witnesses. In addition to Michael 
Macleod-Ball, we will hear from Dr. Stevan Weine of the 
University of Chicago; my friend Jim Zogby of the Arab American 
Institute; and Kim Cragin of RAND.
    All of the Members of this subcommittee, who took oaths to 
protect and defend the Constitution and to provide for the 
common defense, look forward to your expert analysis and 
suggestions for tackling this growing threat. Terrorists only 
have to be right once. We have to try our best to be right 100 
percent of the time.
    I now yield to the Ranking Member for an opening statement.
    Mr. McCaul. I thank the Madame Chair, and thank you for 
this very timely and important hearing.
    I thank the witnesses for being here today.
    Homegrown terrorism is happening right now and right here 
in the United States. As we sit here today, someone or some 
group of people is in the process of being radicalized to 
extremist ideology.
    Most will limit themselves to radical thoughts and speech 
that are undeniably protected by our Constitution. But there 
are those who are on the path toward violent acts of terrorism, 
and their life's work is to try to kill us. Unfortunately, 
finding and stopping these individuals is like finding a needle 
in a haystack.
    Recent cases highlight the fact that the United States is 
not immune to homegrown terrorism, and the murders at Fort Hood 
just north of my district by Nidal Hasan last month remind us 
not only about domestic radicalization but how vulnerable we 
really are to an attack.
    Thirteen innocent people were brutally murdered and many 
others injured on November 5 by the hand of a U.S. citizen, a 
doctor and a member of the United States military. The threat 
is real, and we are still at risk in this Nation. Case after 
case demonstrates this fact.
    Major Nidal Hasan said his allegiance was to the Koran and 
not to the Constitution, tried to get his bosses to prosecute 
some of his patients as war criminals, regularly described the 
war on terrorism as a war against Islam, used a presentation at 
an environmental health class to argue that Muslims were being 
targeted by the U.S. antiterror campaign, and was very vocal 
about the war, very up-front about being a Muslim first and an 
American second.
    Daniel Patrick Boyd, a U.S. citizen, and six others were 
arrested in July, charged with conspiracy to provide material 
support to terrorists. According to the FBI, Boyd trained in 
terrorist training camps in Pakistan and Afghanistan.
    Then Mr. Zazi--probably one of the biggest threats that we 
have discovered recently in terms of a cell in the United 
States--working on behalf of al-Qaeda, born in Afghanistan, 
U.S. legal permanent resident living in Colorado, charged with 
conspiracy to use weapons of mass destruction.
    David Headley, a U.S. citizen who attended terrorist 
training camps in Pakistan, was living in Chicago and planned 
attacks abroad. We have learned that he was not only planning 
future attacks but has now been charged with helping to plan 
the 2008 attacks on Mumbai, India.
    Just over the past few days, we are learning about five 
young men from Virginia, just outside of where we sit here 
today, who traveled to Pakistan, reportedly to link up with 
members of al-Qaeda. It appears that these young men were 
radicalized just miles from where we sit here.
    The danger is that we are seeing more and more of these 
cases, more and more individuals who self-radicalize over the 
internet versus being actively recruited by al-Qaeda--
individuals who are turning to radical--extremist thought--and 
then turning to terrorism.
    Mr. Smadi, in my home State of Texas, in the United States, 
was illegally in this country and living in Texas--was arrested 
for plotting to blow up a skyscraper in Dallas, Texas.
    According to the FBI, Smadi made a decision to act to 
commit a significant conspicuous act of violence under his 
banner of self-jihad. Smadi is just one of several recent cases 
of ``lone wolf'' plots.
    The Patriot Act was designed to give law enforcement and 
intelligence officials the tools that they need to detect 
terrorist plots. As provisions in the Patriot Act are set to 
expire this month, including the ``lone wolf'' provision, we 
must not forget that we are still under attack and that the 
threat is very real.
    Waiting until terrorist acts occur and innocent men and 
women and children are murdered is not an acceptable answer. We 
must be able to detect and intercept terrorists early.
    In doing so, we need to answer some fundamental questions. 
How can we identify who is on the path to terrorism without 
infringing on the rights of those exercising their 
constitutional freedoms?
    Are there trends and patterns? Are there risk factors that 
make an individual more or less susceptible to going down this 
path? I look forward to hearing the answers to some of these 
questions.
    Madame Chair, I hope that this will be just the first in a 
series of hearings on this topic and that in the future we will 
be able to hear what the Government is doing to help understand 
and combat the spread of radicalization and terrorist ideology.
    There are outreach programs at the NCTC, at DHS and through 
many of the JTTFs. I would request that in subsequent hearings 
we hear from those and others about what is being done and what 
should be done to stop this problem.
    Finally, I believe it is important to note that the 
Government alone cannot solve this problem. This not only is a 
National security problem, it is a community problem. We must 
work together with Government, religious leaders, educators, 
and community groups to reduce this threat.
    I would ask that the witnesses discuss not only what can 
and cannot be done by the Government but what really can be 
done outside of the Government.
    With that, Madame Chair, I yield back.
    Ms. Harman. Thank you.
    Let me just point out for the Ranking Member that we have 
held a series of hearings on this subject, really for the last 
4 years, and made a series of site visits.
    The legislation I mentioned was based on a careful series 
of hearings. We held a hearing a few weeks ago on the threat. I 
know that you were detained in Texas on official business and 
not able to attend that. But we will continue to focus on this 
in the hopes of getting it right.
    I now yield 5 minutes for opening remarks to the Chairman 
of the full committee, Mr. Thompson of Mississippi.
    Mr. Thompson. Thank you, Madame Chair, for holding this 
hearing.
    More than 8 years after the 9/11 attacks, it is not 
particularly surprising that we face the growing, ever-changing 
threat from violent extremists. The Department of Homeland 
Security, stood up in the wake of those attacks, has evolved 
over the course of these past years.
    Yet even amidst changes, there are constants. On one hand, 
we are challenged by the constant and continued threat posed by 
terrorists, both transnational and domestic.
    We are challenged by groups who are able to locate and 
recruit individuals willing to perpetrate inconceivable acts of 
violence.
    On the other hand, we are supported by the constant efforts 
of our dedicated law enforcement, intelligence, and homeland 
security professionals who help defend against that threat.
    The other constant is that we, too, have a duty. We must 
remain vigilant. We must be vigilant to ensure that those who 
bear the brunt of detecting, identifying, disrupting, and 
dismantling efforts by terrorists to strike at us--our 
citizens, our homeland, and our allies--have the adequate 
resources and tools to do so.
    We must be vigilant that we do not slip back into a 
September 10, 2001 mentality regarding the sharing of 
information.
    No matter how we say it--knowing what we know, connecting 
the dots, getting the right information to the right people at 
the right time--we are talking about the same thing. An 
environment in which information is shared is an environment in 
which better decisions can be made and, ultimately, one in 
which people are safer.
    Finally, we must also be vigilant that we are doing 
everything we can to break the links between these groups and 
individuals they are grooming for violence. We, both law 
enforcement and our communities, must keep a watchful eye open 
for people like Zazi, Von Brunn, Smadi.
    But we must also be vigilant that those efforts, resources, 
and tools are applied consistently, in ways that respect the 
privacy and civil liberties of American citizens and do not 
sacrifice our Nation's values.
    For that reason, I am very glad that we have the witnesses 
here before us this morning. I hope that your insights will 
help us maintain our both our vigilance and our ideals.
    Welcome to you all, and I thank you for being here.
    Ms. Harman. I thank the Chairman for his remarks and would 
note that other Members of the subcommittee are reminded that 
under committee rules opening statements may be submitted for 
the record.
    [The statement of Hon. Laura Richardson follows:]
              Prepared Statement of Hon. Laura Richardson
                           December 15, 2009
    Madame Chair, thank you for convening this very important hearing 
today focusing on ways to deter, detect, and prevent terrorist attacks 
while still respecting constitutionally-protected thought. As the 
newest Member of this subcommittee, I look forward to working with you 
and the other Members on the vital issues that will come before us. 
Madame Chair, I also appreciate your commitment to this important and 
timely subject. And finally, I would like to thank our distinguished 
panel of witnesses for appearing before Congress today.
    Newspapers and cable channels are constantly updating us on 
terrorist plots thwarted, both here in America and all over the world. 
Yet often, the story is tragic, one of a terrorist attack that that was 
not stopped in time and succeeded in killing and injuring innocent 
people. It is the purview of this subcommittee to investigate how we 
can minimize the occurrence of these incidents before they reach either 
the planning or final stage. The hearing today is an excellent 
investigation into the complicated issues that surround this important 
area of homeland security.
    Everyone here is familiar with the recent news story of the arrests 
of five men in Alexandria with ties to extremists in Pakistan and in 
the Taliban. This case is a perfect example of the issue we are 
examining today. Yes, it is reported that these men held radical 
beliefs.
    But at what point did their beliefs begin to slide towards criminal 
action? The Constitution does not protect criminal action. This 
constant balancing act between liberty and security is one that this 
hearing will examine today.
    I am pleased that our distinguished subcommittee and the witnesses 
before us will focus today on the gray area between constitutionally-
protected thought and the actions and crimes that can result. We should 
constantly be examining this question in light of the state of the 
world today and the threats that America faces. I look forward to 
hearing from our distinguished panel of witnesses on these issues and 
their thoughts on how to best tread the lines between thought and 
criminal activity.
    Thank you again, Madame Chair, for convening this hearing. I yield 
back my time.

    Ms. Harman. It is now, really, my privilege to welcome our 
witnesses this morning. We will start with Dr. Jim Zogby, who 
is the president and founder of the Arab American Institute and 
who appears today because I called him and urged him to fit 
this hearing into his very busy plans for the month.
    AAI serves as a political and policy research arm of the 
Arab American community. Since 1992, Dr. Zogby has written a 
weekly column called ``Washington Watch'' on U.S. politics that 
is currently published in 14 Arab and South Asian countries.
    He has authored a number of books, including ``What Ethnic 
Americans Really Think'' and ``What Arabs Think: Values, 
Beliefs and Concerns.'' In 2001, Dr. Zogby was appointed to the 
executive committee of the Democratic National Committee and in 
2006 was named co-chair of the DNC's resolutions committee.
    He has advised me personally--and numbers of us here--for 
years on the Muslim community. I think it is very important as 
we review this subject again that we understand the fact that 
most members of the Muslim community are law-abiding citizens 
and really want to help us get this right.
    Dr. Macleod-Ball is the acting director of the ACLU at the 
Washington legislative office. His office works with 
Congressional offices on a nonpartisan basis to ensure that 
American civil liberties are preserved and protected.
    Dr. Macleod-Ball has practiced law and held leading roles 
in the political community, including serving on presidential 
campaigns. His work as an attorney afforded him the opportunity 
to argue significant cases on privacy and Federal regulatory 
authority.
    Before this hearing, before his testimony here, he wrote 
the subcommittee a very thoughtful letter which I have re-read 
in preparation for this hearing on how to understand this 
problem and hopefully how to get it right. He has reviewed some 
draft legislation on recruitment that we are considering.
    I very much appreciate your cooperation with us.
    Dr. Weine is a professor of psychiatry and director of the 
International Center of Responses to Catastrophes at the 
University of Illinois at Chicago, currently serves as the 
principal investigator of a National Institute of Mental 
Health-sponsored study on adolescent refugees from Liberia and 
Somalia in the United States.
    Dr. Weine has authored several articles and books, 
including ``Testimony and Catastrophe: Narrating the Traumas of 
Political Violence.'' He was awarded a Career Scientist Award 
from the NIMH on services-based research with refugee families.
    Finally, Dr. Cragin is senior policy analyst at the RAND 
Corporation. She is also an adjunct professor at the University 
of Maryland, where she focuses on terrorism-related issues.
    She served 3 months on General Petraeus' staff in Iraq in 
2008, and her RAND publications include ``The Terrorist''--
``The Dynamic Terrorist Threat,'' ``Sharing the Dragon's Teeth: 
Terrorist Groups and the Exchange of New Technologies.''
    Without objection, the witnesses' full statements will be 
inserted in the record, and I would like to start with Dr. 
Zogby to summarize his statement for 5 minutes.
    Welcome, Dr. Zogby.

  STATEMENT OF JAMES ZOGBY, PRESIDENT, ARAB AMERICAN INSTITUTE

    Mr. Zogby. Thank you, Madame Chair and Members of the 
committee.
    The issue before us is, indeed, a critical one. It concerns 
our National security, to be sure, but it also represents a 
grave challenge to our National character.
    I come at this exploration from several vantage points, 
some of which you mentioned--as an Arab American leader for 
three decades in my community, having worked with Arab 
Americans and with other Muslim communities as well; as a Ph.D. 
in Islamic studies also, someone who did post-doctoral work in 
the impact on religion in societies under stress; as a pollster 
who, with my brother John Zogby, has intensively polled 
communities of interest both here in the United States, in 
Europe and across the Middle East; and as a participant leader 
in ethnic coalitions in this country that has brought me into 
close contact with new and not-so-new Americans, watching them 
move from exile politics into the American mainstream.
    Let me begin with a simple observation. Despite real 
concerns that we all share about recent cases involving the 
arrests of some young men seeking association with dangerous 
international terrorist activity, and the arrests of others who 
appeared to be on the verge of carrying out such activity, we 
are not Europe.
    Our situation here is fundamentally different than that 
faced by countries on the continent, for several reasons. First 
and foremost is that America is different in concept and 
reality.
    I have heard and talked to third-generation Kurds in 
Germany, or Algerians in France, or Pakistanis in England who 
will continue to remain on the margins of their societies. They 
are Turks. They are Arabs. Or they are Pakis. They do not 
become British or German or French.
    On the other hand, becoming American is a very different 
process. It has brought countless numbers of immigrant 
groupings into the mainstream. It is not the possession of a 
single ethnic community or a single ethnic group--has the right 
to define American.
    Within generations, diverse communities and religious--
people of different religious backgrounds from every corner of 
the globe have become Americans. The important thing is that 
not only do they become Americans, but America becomes changed 
as well.
    Because of this rich experience, recent immigrants from 
Arab and Muslim countries come to this country, in effect, with 
the table set for them. They find it a--be a fertile ground for 
the ever-broadening definition of being American.
    Another important difference between our situation and 
Europe is that people here do not stay on the margins. In fact, 
because of the extraordinary social and economic mobility 
available to immigrants, they, in fact, move into enterprise.
    The Yemeni community in California, which I first met about 
30 years ago, that was picking grapes in the valley are today 
business owners throughout the country, and their children are 
in colleges and, in fact, becoming quite successful.
    It is true we have a problem. But I think we need to put 
the problem into context. The arrests of these young men that 
we have seen is certainly one that we must consider, and we 
must consider not only the impact on our country but also the 
impact on the communities affected.
    Let me say the following. We are engaged in a conflict 
internationally, there is no question about it. It has 
repercussions here at home. There are those on both sides of 
the conflict who have sought to exploit it, who have sought to 
cast it as an irreversible clash of civilizations.
    Just there are some religious and political leaders and 
media figures in the Muslim world who have sought to paint 
America with a broad brush of irredeemable evil, there are 
counterparts here in this country who have tried to do the same 
with Islam. All of this exacerbates tension and creates 
problems on all sides.
    Despite this, the vast majority of American Muslims and 
Arab Americans have rejected this fomenting clash. They have 
worked within the political process available to them. They 
have fought discrimination. They have combated hate crimes. 
They voice their differences in the United States as citizens, 
not as aliens.
    Nevertheless, it is a fact that some alienated young men 
from these communities have become susceptible to antisocial 
radicalization. This is not new. We have seen it before.
    In the past four decades that I have been involved in 
politics, we have witnessed recruitment into white supremacy 
and Christian nation and militia organizations--the Black 
Panthers, the Jewish Defense League, the IRA, the Tamil Tigers.
    The fact is that the allure of certain ideology and 
romanticized machismo, complete with weapons training and acts 
of bravado, does provide for some of these young men a 
dangerous cure to the alienation and feeling of powerlessness 
that they experience.
    We are seeing it again. We are seeing it now with a 
different group of people. I have reviewed dozens of these 
cases. I have looked at them up and down. There are multiple 
differences. We have to look at the multiple differences and 
see what they are, because they can't all be painted as one 
simple phenomenon.
    But the pattern of alienation and that leads to violent 
action as a cure to that alienation seems to run through them 
all. This is what we must address.
    I believe that we must address it with a scalpel and not 
with a sledgehammer, because if we, in fact, take a swipe at 
the whole community, we increase the alienation and we change 
the character of who we are, making it more difficult for us to 
deal with the problem.
    Let me just come to a close by saying that we have to 
understand what we are doing right--not only what is wrong, but 
what is being done right. Recruitment will remain. We have to 
find a way to make young men less susceptible to the 
recruitment.
    I think if we look at what is going on right, we have 
leading Muslim American organizations actively responding to 
efforts to deal with the problem.
    I can cite the work of the Muslim Public Affairs Committee 
as an example, reaching out to law enforcement, working with 
their communities, working in particular with young people to 
create political alternatives so they can voice their 
differences with the policies that lead to the aggravation in a 
way as citizens seeking recourse.
    Law enforcement is also working with these communities and 
doing so quite effectively. As the situation in Minneapolis or 
here in northern Virginia shows, the work of the FBI or U.S. 
attorneys can be productive and helpful in this situation.
    Finally, we have a President who is creating a different 
atmosphere and space for discourse with the Muslim world. This 
is very important. The answer is not to change who we are or 
how we react, but to be more of who we are and to continue to 
do what we do best.
    Ms. Harman. Thank you, Dr. Zogby.
    Mr. Zogby. Thank you.
    Ms. Harman. Thank you.
    Mr. Macleod-Ball.

 STATEMENT OF MICHAEL MACLEOD-BALL, ACTING DIRECTOR, AMERICAN 
  CIVIL LIBERTIES UNION (ACLU), WASHINGTON LEGISLATIVE OFFICE

    Mr. Macleod-Ball. Good morning. Thank you, Madame Chair. 
Sorry, thank you.
    Good morning, Chair Harman--thank you very much--Ranking 
Member McCaul, full committee Chairman Thompson and other 
Members of the subcommittee.
    Thank you for inviting the ACLU to testify about the 
importance of protecting associational and speech rights while 
examining violent extremism.
    In 1964, Barry Goldwater said that extremism in the defense 
of liberty is no vice. Extremism is nothing more than a chosen 
set of beliefs and, as such, is protected under the First 
Amendment. An extremist ideology in and of itself must not 
bring on Government censure.
    Violent action, however, whether in the name of ideology or 
otherwise, deserves condemnation.
    This hearing is entitled ``Violent Extremism.'' Violence is 
inherently harmful. Extremism is not. Linking an examination of 
the two implies that an extremist viewpoint leads to violence 
and that violence associated with extremism is more worthy of 
examination than non-ideological violence, even though the 
latter is more frequent and often causes the same broad and 
lasting damage.
    We will fully support this subcommittee's examination of 
events that may explain why individuals choose violence as a 
means to effect political change. We will steadfastly oppose 
efforts to examine and thus cast official disapproval upon any 
minority belief system.
    In times of National crisis, we have often failed to live 
up to our democratic ideals. During the Palmer raids, 
Government created 150,000 secret files on those who held 
radical views or associations or voiced anti-Government 
policies. Lawyers who complained about this were subject to 
investigation themselves.
    The Lusk Committee and the New York Legislature in the 
1920s produced a report on revolutionary radicalism which 
smeared liberals, pacifists, and civil libertarians as agents 
of international communism.
    In the early Cold War era, Senator Joseph McCarthy's 
subcommittee and the House UnAmerican Activities Committee 
ruined the careers of many loyal Americans based purely on 
their associations.
    In the 1950s and 1960s, the FBI ran a domestic 
counterintelligence program that attempted to suppress 
political dissent, opening over half a million domestic 
intelligence files and identifying thousands of individuals to 
be rounded up in a National emergency.
    Instead of focusing on violations of law, these official 
efforts targeted people based upon their beliefs and 
associations.
    The security threat then was no less real during the first 
Red Scare and during the Cold War, and yet Government abused 
its power in responding to those threats.
    There is some cause for similar concern today. A flawed 
2007 New York police report claimed that terrorist acts are 
linked to the adoption of certain beliefs and that there is a 
uniform four-step radicalization process from belief to 
association to terrorism.
    But the report was based on just five cases and ignored the 
fact that millions of people progressed through some or all of 
these very same steps without ever committing an act of 
violence.
    Ignoring those flaws, the Virginia Fusion Center cited the 
same report in designating the State's universities as nodes of 
radicalization requiring law enforcement attention.
    A 2008 report by the Senate Homeland Security Committee 
also restated the same flawed theories in arguing for a 
National strategy to counter the influence of the ideology.
    More recently, however, countervailing studies have begun 
to appear. A comprehensive United Kingdom analysis concluded 
that there is no single pathway to extremism. Facing 
marginalization and racism was identified as a key factor 
making an individual receptive to extremist ideology.
    A 2008 National Counterterrorism Center paper cited 
America's greater diversity and civil rights protections to 
explain lower levels of homegrown terrorism here.
    In Senate testimony, one terrorism expert blamed moral 
outrage at abuses of detainees and the perception of a war 
against Islam as the primary cause of violence, not ideology. 
He recommended against any measure that would tend to alienate 
the Muslim community.
    This subcommittee, I would say, is showing admirable 
sensitivity to the issue just by holding this hearing. We don't 
question whether this subcommittee should examine violent 
extremism but, rather, how it should do so.
    Singling out for examination violent actions committed by 
adherents to a particular ideology for scrutiny would 
predetermine an outcome that would unfairly cast suspicion on 
all those who share any part of that belief or ideology. It 
would perpetuate a perception of alienation that helps fuel the 
violence.
    Instead, our best defense lies in a renewed dedication to 
the protection of associational speech and religious rights. 
Congress should focus the Government's antiterrorism research 
on actual terrorist acts and those who commit them, rather than 
on an examination of those who have particular beliefs or who 
express dissent.
    Fear should not drive our Government policies. Protecting 
our First Amendment freedoms will both honor our values and 
keep us safe.
    Thank you for consideration of our views, and I want to pay 
special thanks to the Chair for her constant outreach to our 
office on these issues.
    [The statement of Mr. Macleod-Ball follows:]
             Prepared Statement of Michael W. Macleod-Ball
                           December 15, 2009
    Good morning Chair Harman, Ranking Member McCaul, and Members of 
the subcommittee. Thank you for the opportunity to testify on behalf of 
the American Civil Liberties Union, its hundreds of thousands of 
members, countless additional supporters and activists, and fifty-three 
affiliates Nation-wide, about the importance of zealously safeguarding 
our constitutionally-protected freedoms while we strive to understand 
how individuals become violent extremists. The ACLU recognizes that 
Government has an obligation to protect society from terrorists and 
other violent criminals, and that studying previous terrorist attacks 
and the people who committed them could provide clues useful to 
preventing future acts of violence. But Congress must tread carefully 
when attempting to examine people's thoughts or classify their beliefs 
as inside or outside the mainstream to avoid infringing on fundamental 
rights that are essential to the functioning of a healthy democracy. 
Sacrificing our civil liberties in the pursuit of security is unwise, 
unnecessary, and according to several recent studies, counterproductive 
to preventing extremist violence.
    Barry Goldwater, accepting the Republican nomination for the Office 
of President of the United States in 1964 said that ``Extremism in the 
defense of liberty is no vice!'' This subcommittee must keep in mind 
that extremism is nothing more than a chosen set of beliefs and, as 
such, is absolutely protected under the First Amendment. Asking whether 
extremist ideology is the precipitator of violence or not presumes that 
a connection exists between the belief system and the commission of 
violence. But recent empirical studies of terrorism downplay such a 
causal connection. To assume without evidence that everyone of a 
particular faith or ideology is a threat because of the actions of a 
few would betray American values and waste security resources. An 
extremist ideology, in and of itself, must not bring on Government 
censure.
    Violent action, on the other hand, whether in the name of ideology 
or otherwise, deserves the full-throated condemnation of the Government 
and its people. As this committee carries on its work on this issue, it 
has the opportunity to set a sterling and courageous example for the 
Nation by focusing on the root causes of violence, while fully 
respecting the rights of all individuals to hold views that may be 
different--or even abhorrent--to the great majority of the country. We 
will fully support this subcommittee's examination of the historical 
events that may tend to explain why particular individuals choose to 
use violence as a means to effect social or political change in a 
manner that threatens the National security. We will steadfastly oppose 
any effort to examine, and thus cast official disapproval upon, any 
minority belief system. Any such effort would chill the First Amendment 
rights of those involved and be an unfair slap at untold numbers of 
wholly innocent Americans.
                      i. first amendment freedoms
    The First Amendment to the United States Constitution guarantees 
freedom of religion, speech, press, petition, and assembly.\1\ These 
protections are based on the premise that open and unfettered public 
debate empowers democracy by enriching the marketplace with new ideas 
and enabling political and social change through lawful means.\2\ These 
freedoms also enhance our security. Though ``vehement, caustic and 
sometimes unpleasantly sharp attacks on government and public 
officials'' have to be endured under our constitutional system of 
Government, the uninhibited debate these freedoms guarantee is 
recognized as ``essential to the security of the Republic'' because it 
ensures a Government responsive to the will of the people.\3\ Moreover, 
as Justice Brandeis explained, our Nation's Founders realized that the 
greater threat to security lay not in protecting speech, but in 
attempting to suppress it:
---------------------------------------------------------------------------
    \1\ The Constitution of the United States, Amendment 1: ``Congress 
shall make no law respecting an establishment of religion, or 
prohibiting the free exercise thereof; or abridging the freedom of 
speech, or of the press; or the right of the people peaceably to 
assemble, and to petition the Government for a redress of grievances.''
    \2\ See, United States v. Associated Press, 52 F. Supp. 362, 372 
(D.C.S.D.N.Y.1943); Roth v. United States, 354 U.S. 476, 484 (1957).
    \3\ See, New York Times, Co. v. Sullivan, 376 U.S. 254, 270 (1964), 
quoting Stromberg v. California, 283 U.S. 359, 369 (1931).

``Those who won our independence . . . knew that order cannot be 
secured merely through fear of punishment for its infraction; that it 
is hazardous to discourage thought, hope and imagination; that fear 
breeds repression; that repression breeds hate; that hate menaces 
stable government; that the path of safety lies in the opportunity to 
discuss freely supposed grievances and proposed remedies, and that the 
fitting remedy for evil counsels is good ones. Believing in the power 
of reason as applied through public discussion, they eschewed silence 
coerced by law--the argument of force in its worst form. Recognizing 
the occasional tyrannies of governing majorities, they amended the 
Constitution so that free speech and assembly should be 
guaranteed.''\4\
---------------------------------------------------------------------------
    \4\ Whitney v. California, 274 U.S. 357, 375-376, (1927), 
(Brandeis, J., Concurring).
---------------------------------------------------------------------------
                          ii. historical abuse
    Unfortunately, in times of National crisis we have often failed to 
recognize the strength of our democratic ideals. Indeed the ACLU was 
founded in 1920 to come to the defense of immigrants, trade unionists, 
and political activists who were illegally rounded up by the thousand 
in the infamous Palmer raids during America's first ``red scare,'' a 
period of significant anarchist violence. Rather than focusing on 
finding the perpetrators of the violence, the Government sought anyone 
who supported similar political views, associated with disfavored 
organizations or wrote or spoke in opposition to Government policies. 
Lawyers who complained of the abuse, which included torture, coerced 
confessions, illegal searches and arrests, were subject to 
investigation themselves.\5\
---------------------------------------------------------------------------
    \5\ Select Comm. to Study Governmental Operations with Respect to 
Intelligence Activities, U.S. Senate, 94th Cong., Final Report on 
Supplemental Detailed Staff Reports on Intelligence Activities and the 
Rights of Americans (Book III), S. Rep. No. 94-755, at 385 (1976), 
available at: http://www.aarclibrary.org/publib/church/reports/book3/
html/ChurchB3_0196b.htm.
---------------------------------------------------------------------------
    The Department of Justice General Intelligence Division (GID), the 
precursor agency to the Federal Bureau of Investigation (FBI), 
collected 150,000 secret files ``giving detailed data not only upon 
individual agitators connected with the radical movement, but also upon 
organizations, associations, societies, publications and social 
conditions existing in certain localities.''\6\ By the GID's own 
account the warrantless searches, arrests, and deportations were not 
particularly useful in identifying suspected terrorists or other 
criminal activity. Rather, its claimed success was in ``wrecking the 
communist parties in this country'' and shutting down ``the radical 
press.''\7\ The New York State Legislature also initiated a 2-year 
investigation into the spread of radical ideas. The Joint Legislative 
Committee to Investigate Seditious Activities (commonly referred to as 
the Lusk Committee) ultimately produced a report, Revolutionary 
Radicalism: Its History, Purpose and Tactics, which ``smeared liberals, 
pacifists, and civil libertarians as agents of international 
Communism.''\8\ Though thousands were arrested, few were prosecuted or 
deported and little incriminating information was obtained during the 
committee's investigation.\9\ Studying radicals was apparently of 
little help in finding actual terrorists.
---------------------------------------------------------------------------
    \6\ Select Comm. to Study Governmental Operations with Respect to 
Intelligence Activities, U.S. Senate, 94th Cong., Final Report on 
Supplemental Detailed Staff Reports on Intelligence Activities and the 
Rights of Americans (Book III), S. Rep. No. 94-755, at 386 (1976), 
[CHURCH REPORT] available at: http://www.aarclibrary.org/publib/church/
reports/book3/html/ChurchB3_0196b.htm.
    \7\ Id, at 387.
    \8\ Samuel Walker, In Defense of American Liberties: A History of 
the ACLU, Oxford, (1990) p. 16.
    \9\ The Lusk Committee: A Guide to the Records of the Joint 
Committee to Investigate Seditious Activities: A Guide to the Records 
Held in the New York State Archives, available at: http://
www.archives.nysed.gov/a/research/res_topics_bus_lusk.shtml.
---------------------------------------------------------------------------
    In the years that followed, due in part to the public outcry over 
the red scare abuses, the Department of Justice would reform its 
policies to focus strictly on violations of law, but these reforms 
would not hold.\10\ The Cold War brought about a second red scare 
characterized by Congressional witch hunts orchestrated by Senator 
Joseph McCarthy's Permanent Subcommittee on Investigations and the 
House Un-American Activities Committee, which ruined the careers of 
many loyal Americans based purely on their associations. At the same 
time, and sometimes in support of these Congressional investigations, 
the FBI ran a domestic counter-intelligence program (COINTELPRO) that 
quickly evolved from a legitimate effort to protect the National 
security from hostile foreign threats into an effort to suppress 
domestic political dissent through an array of illegal activities. The 
Senate Select Committee that investigated COINTELPRO (the ``Church 
Committee'') said the ``unexpressed major premise of . . . COINTELPRO 
is that the Bureau has a role in maintaining the existing social order, 
and that its efforts should be aimed toward combating those who 
threaten that order.''\11\ Once again, instead of focusing on 
violations of law, these investigations targeted people based on their 
beliefs, political activities and associations. In his Church Committee 
testimony White House liaison Tom Charles Huston, author of the 
infamous ``Huston Plan,'' explained the hazards of this shift in focus:
---------------------------------------------------------------------------
    \10\ CHURCH REPORT, at 388.
    \11\ Id., at 7.

``The risk was that you would get people who would be susceptible to 
political considerations as opposed to national security 
considerations, or would construe political considerations to be 
national security considerations, to move from the kid with a bomb to 
the kid with a picket sign, and from the kid with the picket sign to 
the kid with the bumper sticker of the opposing candidate.''\12\
---------------------------------------------------------------------------
    \12\ Id., at 27.

    FBI headquarters opened over 500,000 domestic intelligence files 
between 1960 and 1974, and created a list of 26,000 individuals who 
would be ``rounded up'' in the event of a National emergency.\13\ The 
FBI used the information it gleaned from these improper investigations 
not for law enforcement purposes, but to ``break up marriages, disrupt 
meetings, ostracize persons from their professions and provoke target 
groups into rivalries that might result in deaths.''\14\
---------------------------------------------------------------------------
    \13\ Id., at 6-7.
    \14\ Id., at 5.
---------------------------------------------------------------------------
                              iii. reform
    Fortunately this period also saw the Supreme Court begin to take a 
more principled stance in protecting First Amendment rights. In a 
number of cases addressing convictions under the Smith Act, which 
criminalized advocating the violent overthrow of the United States or 
membership in any organization that did, the Supreme Court began 
drawing a distinction between advocacy of violence as a tactic of 
political change and incitement to violence: ``the mere abstract 
teaching . . . of the moral propriety or even moral necessity for a 
resort to force and violence is not the same as preparing a group for 
violent action and steeling it to such action.''\15\ These cases 
culminated in Brandenberg v. Ohio, in which the Court established that 
advocacy of violence could be criminalized only where ``such advocacy 
is directed to inciting or producing imminent lawless action and is 
likely to incite or produce such action.''\16\
---------------------------------------------------------------------------
    \15\ Noto v. United States, 367 U.S. 290, 297-298 (1961). See also, 
Dennis v. United States, 341 U.S. 494 (1951); and Yates v. United 
States, 354 U.S. 298 (1957).
    \16\ 395 U.S. 444, 447 (1969).
---------------------------------------------------------------------------
    The Court also strengthened the concept of freedom of association 
during this time in a series of cases involving attempts to suppress 
the National Association for the Advancement of Colored People (NAACP):

``Effective advocacy of both public and private points of view, 
particularly controversial ones, is undeniably enhanced by group 
association, as this Court has more than once recognized by remarking 
upon the close nexus between the freedoms of speech and assembly.''\17\
---------------------------------------------------------------------------
    \17\ NAACP v. Alabama ex rel. Patterson, 357 U.S. 449, 460 (1958).

    The Court repeatedly struck down State government attempts to 
compel disclosure of NAACP membership lists in these cases, citing 
``the vital relationship between freedom to associate and privacy in 
one's association'' and acknowledging the need to protect these rights 
from even subtle and unintentional Government interference.\18\
---------------------------------------------------------------------------
    \18\ Id, at 462. See also, Bates v. City of Little Rock, 361 U.S. 
516 (1960); Shelton v. Tucker, 364 U.S. 479 (1960); and, Louisiana ex 
rel. Gremillion v. NAACP, 366 U.S. 293 (1961).
---------------------------------------------------------------------------
    This recognition that the official investigation of an organization 
or its membership could impermissibly discourage or ``chill'' the 
exercise of constitutionally protected political rights is critically 
important to the present discussion regarding the study of violent 
extremism. Indeed the Court's co-temporal decision in a case reviewing 
a conviction for contempt of Congress following a witness's refusal to 
``name names'' before the House Un-American Activities Committee makes 
the point more explicitly.\19\ While the Court recognized Congress's 
broad investigative powers inherent to its legislative function, and 
its unquestioned authority to hold recalcitrant witnesses in contempt, 
it also held that abuse of the investigative process could lead to an 
unconstitutional abridgment of protected rights. Moreover, the Court 
detailed the severe harms that can result even from mere investigation:
---------------------------------------------------------------------------
    \19\ Watkins v. United States, 354 U.S. 178 (1957).
---------------------------------------------------------------------------
``The mere summoning of a witness and compelling him to testify, 
against his will, about his beliefs, expressions or associations is a 
measure of governmental interference. And when those forced revelations 
concern matters that are unorthodox, unpopular, or even hateful to the 
general public, the reaction in the life of the witness may be 
disastrous. This effect is even more harsh when it is past beliefs, 
expressions or associations that are disclosed and judged by current 
standards, rather than those contemporary with the matter exposed. Nor 
does the witness alone suffer the consequences. Those who are 
identified by witnesses, and thereby placed in the same glare of 
publicity, are equally subject to public stigma, scorn and obloquy. 
Beyond that, there is the more subtle and immeasurable effect upon 
those who tend to adhere to the most orthodox and uncontroversial views 
and associations in order to avoid a similar fate at some future time. 
That this impact is partly the result of nongovernmental activity by 
private persons cannot relieve the investigators or their 
responsibility for initiating the reaction.''\20\
---------------------------------------------------------------------------
    \20\ Id, at 197-198.
---------------------------------------------------------------------------
              iv. contemporary investigations of terrorism
    We do not provide this history to argue that Congress cannot or 
should not investigate terrorism--far from it. The danger posed by 
modern terrorists is real and Congress must understand the scope and 
nature of the threat and exercise its authorities to the utmost in 
overseeing the Government's response, holding our military, law 
enforcement, and intelligence agencies accountable, and crafting 
sensible legislation that enhances security while protecting the rights 
of innocent persons. But the security threat was no less real during 
the first red scare and during the Cold War. The question is not 
whether Congress should respond but how it should respond. History 
tells us that conflating the expression of unorthodox or even hostile 
beliefs with threats to security only misdirects resources, 
unnecessarily violates the rights of the innocent, and unjustly 
alienates communities unfairly targeted as suspicious. Justice Brandeis 
argued that ``[f]ear of serious injury cannot alone justify suppression 
of free speech and assembly. Men feared witches and burnt women. It is 
the function of speech to free men from the bondage of irrational 
fears.''\21\
---------------------------------------------------------------------------
    \21\ Whitney v. California, 274 U.S. 357, 376, (1927), (Brandeis, 
J., Concurring).
---------------------------------------------------------------------------
    Unfortunately the Government has recently produced ill-conceived 
and methodologically flawed reports that claim not only that terrorist 
acts are linked to the adoption of certain beliefs but that there is a 
uniform process of ``radicalization'' in which one progresses from 
belief to association to terrorism. The New York Police Department 
report, Radicalization in the West: The Homegrown Threat, published in 
2007, purports to identify a four-step ``radicalization process'' that 
terrorists go through, but even the authors of the study admit crucial 
limitations to the application of their theory, namely:
  <bullet> that not all individuals who begin the process pass through 
        all the stages;
  <bullet> that many ``stop or abandon this process at different 
        points;'' and finally,
  <bullet> that ``individuals do not always follow a perfectly linear 
        progression'' through the four steps.\22\
---------------------------------------------------------------------------
    \22\ Mitchell Silber and Arvin Bhatt, New York Police Department, 
Radicalization in the West: The Homegrown Threat, p. 6, (2007). This 
report seems to draw heavily from an earlier FBI Intelligence 
Assessment, ``The Radicalization Process: From Conversion to Jihad,'' 
(May 10, 2006), though it is not cited.
---------------------------------------------------------------------------
    So these are not consecutive steps along a path at all, but rather 
four stones scattered in the woods which a terrorist or anyone else 
wandering through may or may not touch.
    What is dangerous is that the each of the four steps the NYPD 
describes involve constitutionally-protected religious and 
associational conduct, and the authors ignore the fact that millions of 
people may progress through one, several, or all of these ``stages'' 
and never commit an act of violence. Moreover these conclusions are 
based on just five terrorism cases, clearly a statistically 
insignificant sample from which to draw such sweeping conclusions. Yet 
the Virginia Fusion Center has cited the NYPD report, as well as 
Department of Homeland Security (DHS) and FBI reports, in designating 
the State's universities and colleges as ``nodes of radicalization'' 
requiring law enforcement attention and characterized the ``diversity'' 
surrounding a Virginia military base and the State's ``historically 
black'' colleges as possible threats.\23\
---------------------------------------------------------------------------
    \23\ See, ACLU press release, ``Fusion Center Declares Nation's 
Oldest Universities Possible Terrorist Threat,'' (Apr. 6, 2009), at: 
http://www.aclu.org/technology-and-liberty/fusion-center-declares-
nation%E2%80%99s-oldest-universities-possible-terrorist-threat.
---------------------------------------------------------------------------
    The NYPD report drew quick condemnation from the civil liberties 
and Muslim communities. The Brennan Center for Justice issued a memo 
complaining of the report's ``foreseeable stigmatizing effect, and its 
inferential but unavoidable advocacy of racial and religious 
profiling.''\24\ New York City Muslim and Arab community leaders formed 
a coalition in response to the NYPD report and issued a detailed 
analysis criticizing the NYPD for wrongfully ``positing a direct causal 
relation between Islam and terrorism such that expressions of faith are 
equated with signs of danger,'' and potentially putting millions of 
Muslims at risk.\25\
---------------------------------------------------------------------------
    \24\ Aziz Huq, ``Concerns with Mitchell D. Silber and Arvin Bhatt, 
N.Y. Police Dep't, Radicalization in the West: The Homegrown Threat,'' 
New York University School of Law, Brennan Center for Justice, (Aug. 
30, 2007), at: http://brennan.3cdn.net/
436ea44aae969ab3c5_sbm6vtxgi.pdf. See also, Coalition Memo to the 
Senate Committee on Homeland Security and Governmental Affairs 
Regarding ``Homegrown Terrorism,'' American Civil Liberties Union et 
al. (May 7, 2008) available at http://www.aclu.org/safefree/general/
35209leg20080507.html.
    \25\ Muslim American Civil Liberties Coalition, CountertERRORism 
Policy: MACLC's Critique of the NYPD's Report on Homegrown Terrorism, 
(2008), at: [sic].
---------------------------------------------------------------------------
    A subsequent report by the Senate Homeland Security and 
Governmental Affairs Committee (HSGAC) entitled Violent Islamist 
Extremism, The Internet, and the Homegrown Terrorism Threat ignored 
this criticism and simply re-stated the NYPD's flawed radicalization 
theories in arguing for a National strategy ``to counter the influence 
of the Ideology.''\26\ Again, Muslim and Arab civil liberties 
organizations united to issue a joint letter complaining that the HSGAC 
report ``undermines fundamental American values'' and ``exacerbates the 
current climate of fear, suspicion and hatemongering of Islam and 
American Muslims.''\27\
---------------------------------------------------------------------------
    \26\ United States Senate Committee on Homeland Security and 
Governmental Affairs Majority and Minority Staff Report, ``Violent 
Islamist Extremism, The Internet, and the Homegrown Terrorist Threat,'' 
(May 8, 2008).
    \27\ Coalition Letter to the Honorable Joseph I. Lieberman and the 
Honorable Susan M. Collins, May 14, 2008, available at: http://
www.muslimadvocates.org/documents/temporary_HSGAC_report-
Allied_response_FINAL.pdf.
---------------------------------------------------------------------------
    It is important to recognize the impact these dubious reports have 
on the Muslim and Arab community, as explained in their thoughtful 
responses, because the HSGAC heard testimony from several witnesses who 
cited the growth of Islamophobia and the polarization of the Muslim 
community as risk factors that could raise the potential for extremist 
violence.\28\ Unfairly focusing suspicion on a vulnerable community 
tends to create the very alienation these witnesses claimed could lead 
to homegrown terrorism.
---------------------------------------------------------------------------
    \28\ See for example, Hearing of the Senate Homeland Security and 
Governmental Affairs Committee, Violent Islamist Extremism: The 
European Experience, (June 27, 2007), particularly the testimony of 
Lidewijde Ongering and Marc Sageman, available at: http://
hsgac.senate.gov/public/index.cfm?FuseAction=Hearings.Hearing&Hearing--
ID=9c8ef805-75c8-48c2-810d-d778af31cca6.
---------------------------------------------------------------------------
    Indeed a more recent United Kingdom analysis based on hundreds of 
case studies of individuals involved in terrorism reportedly concluded 
that, contrary to the NYPD study, there is no single identifiable 
pathway to extremism and ``a large number of those involved in 
terrorism do not practice their faith regularly.''\29\ Moreover, the 
study reportedly identified ``facing marginalization and racism'' as a 
key vulnerability that could tend to make an individual receptive to 
extremist ideology.\30\ The conclusion supporting tolerance of 
diversity and protection of civil liberties was echoed in a National 
Counterterrorism Center (NCTC) paper published in August 2008. In 
exploring why there was less violent homegrown extremism in the United 
States than the United Kingdom, the authors cited the diversity of 
American communities and the greater protection of civil rights as key 
factors.\31\
---------------------------------------------------------------------------
    \29\ Alan Travis, ``MI5 Report Challenges Views on Terrorism in 
Britain,'' The Guardian, (August 20, 2008) at: http://
www.guardian.co.uk/uk/2008/aug/20/uksecurity.terrorism1 and; Alan 
Travis, ``The Making of an Extremist,'' The Guardian (Aug. 20, 2008) 
at: http://www.guardian.co.uk/uk/2008/aug/20/uksecurity.terrorism.
    \30\ Id.
    \31\ National Counterterrorism Center Conference Report, Towards a 
Domestic Counterradicalization Strategy, (August 2008). Notwithstanding 
the conclusion, the paper inexplicably went on to examine how the 
United States could better adopt U.K. counterterrorism strategies.
---------------------------------------------------------------------------
    It is also important to remember that Muslim and Arab groups aren't 
the only ones affected by the Government's inappropriate reliance on an 
unsubstantiated theory of radicalization. Non-violent protest groups 
have repeatedly been targeted for surveillance and infiltration by law 
enforcement over the last several years based on their opposition to 
Government policies from both sides of the political spectrum. An 
assessment published by DHS last year warned that right-wing extremists 
might recruit and radicalize ``disgruntled military veterans.''\32\ An 
intelligence report produced for DHS by a private contractor smeared 
environmental organizations like the Sierra Club, the Humane Society, 
and the Audubon Society as ``mainstream organizations with known or 
possible links to eco-terrorism.''\33\ Similarly, a Missouri Fusion 
Center released an intelligence report on ``the modern militia 
movement'' that claimed militia members are ``usually supporters'' of 
presidential candidates Ron Paul and Bob Barr.\34\ Slandering 
upstanding and respectable organizations does not just violate the 
rights of these groups and those who associate with them, it wastes 
security resources and undermines public confidence in the Government.
---------------------------------------------------------------------------
    \32\ See, U.S. Dep't of Homeland Security, Assessment: Rightwing 
Extremism: Current Economic and Political Climate Fueling Resurgence in 
Radicalization and Recruitment (Apr. 7, 2009), available at http://
wnd.com/images/dhs-rightwing-extremism.pdf.
    \33\ Universal Adversary Dynamic Threat Assessment, Eco-Terrorism: 
Environmental and Animal Rights Militants in The United States, (May 7, 
2008), available at http://wikileaks.org/leak/dhs-ecoterrorism-in-us-
2008.pdf.
    \34\ T.J. Greaney, `Fusion Center' Data Draws Fire over Assertions, 
Colombia Daily Tribune, (March 14, 2009), available at http://
www.columbiatribune.com/news/2009/mar/14/fusion-center-data-draws-fire-
over-assertions/.
---------------------------------------------------------------------------
                 v. distinguish extremism from violence
    By its title, this hearing focuses on ``Violent Extremism''. The 
phrase presents two distinct concepts as if they were one. Extremism is 
defined in somewhat circular fashion by one dictionary as the 
``advocacy of extreme measures or views''.\35\ Extremism is a state of 
mind or a set of beliefs. There is nothing about the notion of 
extremism that necessarily denotes violence. And, as Goldwater 
suggested, some forms of extremism are to be admired. But all forms of 
extremism are entitled to protection under our Constitution.
---------------------------------------------------------------------------
    \35\ Merriam Webster's Online Dictionary, available at http://
www.merriam-webster.com/dictionary/Extremism.
---------------------------------------------------------------------------
    Violence on the other hand is entitled to no such deference. The 
same source defines ``violence'' as the ``exertion of physical force so 
as to injure or abuse''.\36\ It is an invasive force intended to do 
harm and, as such, qualifies for no constitutional protection. By 
linking the two, there is an implicit suggestion that an extremist 
viewpoint necessarily leads to violent action. There is the further 
suggestion that violence associated with extremism is somehow worse--or 
more worthy of examination--than other forms of violence.
---------------------------------------------------------------------------
    \37\ Id. at http://www.merriam-webster.com/dictionary/violence.
---------------------------------------------------------------------------
    Reliable evidence to support these suggestions, however, is not 
readily available despite popular belief to the contrary. Violence 
having no discernible tie to ideology occurs far more frequently and 
has far wider impact than violence assumed to arise out of extremist 
views. It would be a mistake to dismiss ``regular crime'' as not 
causing the same broad and lasting damage to society that terrorism 
does. Consider the societal impact of student shootings at Virginia 
Tech and Columbine, the anthrax attacks and the sniper shootings in 
Washington, DC, and elsewhere in the country--not to mention gang 
violence, and violence against women, children, and the elderly. The 
FBI reported there were 1,382,012 violent crimes committed in the 
United States in 2008, including 16,272 murders and 89,000 rapes.\37\ 
The question that confounds us is always what possible motives could 
move these individuals from a life of non-violence to the commission of 
such acts.
---------------------------------------------------------------------------
    \37\ Uniform Crime Reports, Crime in the United States, 2008, U.S. 
Dep't. of Justice, Federal Bureau of Investigation, Table 1 (2009), at: 
http://www.fbi.gov/ucr/cius2008/data/table_01.html.
---------------------------------------------------------------------------
    In testimony before the HSGAC, Dr. Marc Sageman, who conducted 
empirical studies of actual terrorists, downplayed the role of 
religious belief as a driver of violence: `` . . . there has been far 
too much focus on ideology in trying to understand radicalization. In 
my observations of Islamist terrorists, I came to the conclusion that 
there were not Islamic scholars'' \38\ (emphasis in original). Instead, 
Sageman cited moral outrage at the Iraq war, abuses of U.S. detainees 
in Abu Ghraib and ``GITMO,'' and the perception of a western ``War 
against Islam'' as causal factors, and warned against taking any 
counterterrorism measures that would tend to ``alienate the Muslim 
community.''\39\
---------------------------------------------------------------------------
    \38\ Marc Sageman, testimony before the Hearing of the Senate 
Homeland Security and Governmental Affairs Committee, Violent Islamist 
Extremism: The European Experience, p. 2, (June 27, 2007), available 
at: http://hsgac.senate.gov/public/
index.cfm?FuseAction=Hearings.Hearing&-
Hearing_ID=9c8ef805-75c8-48c2-810d-d778af31cca6.
    \39\ Id., at 5.
---------------------------------------------------------------------------
    It is possible that an impartial panel to study terrorism will find 
that in some instances, an individual's adoption of a certain belief 
system influenced a decision to commit a violent act. However, it is 
also just as possible that such a panel will find that in other 
instances, other factors wholly unrelated to ideology or extremism will 
be the key factors motivating the violent actions. The important 
element, however, is to examine the violence--not the belief system 
held by the violent actor. The subcommittee must ensure that the 
examination does not single out violent actions committed by adherents 
to any particular faith or ideology for scrutiny. To do so would pre-
determine an outcome and cast a chilling net over all those non-violent 
individuals who happen to share all or some of the characteristics or 
beliefs of those studied. Moreover, to do so would tend to perpetuate 
the perception of alienation that, according to some, fuels the 
violence. Significantly, in this regard, one can infer that a renewed 
dedication to the protection of civil liberties, including 
associational, speech, and religious rights, is our best defense. As 
Dr. Sageman suggested, ``we must continue to promote core American 
values of justice and fairness and fight those elements in our society 
that try to single out and antagonize part of our nation.''\40\
---------------------------------------------------------------------------
    \40\ Marc Sageman, testimony before the Hearing of the Senate 
Homeland Security and Governmental Affairs Committee, Violent Islamist 
Extremism: The European Experience, p. 5, (June 27, 2007), available 
at: http://hsgac.senate.gov/public/
index.cfm?FuseAction=Hearings.Hearing&Hearing_ID=9c8ef805-75c8-48c2-
810d-d778af31cca6.
---------------------------------------------------------------------------
                vi. inappropriate focus on the internet
    The HSGAC report also places inordinate and inappropriate 
significance regarding the role of the internet in the radicalization 
process. The internet is simply a tool for communication and the 
expression of ideas. The concern is that identifying ideas and the 
tools that transmit them as a key part of our security problem 
increases the likelihood that censorship on the internet will be part 
of a proposed solution. Indeed, shortly after the publication of the 
HSGAC report Senator Lieberman sent a letter to Google calling on them 
to take down ``terrorist content.''\41\
---------------------------------------------------------------------------
    \41\ Letter from Senator Joseph Lieberman to Dr. Eric Schmidt, 
Chairman of the Board and Chief Executive Officer, Google, Inc., (May 
19, 2008) at: http://lieberman.senate.gov/newsroom/
release.cfm?id=298006.
---------------------------------------------------------------------------
    Government censorship violates the First Amendment and undermines 
democracy. Moreover, any attempt to censor the internet would be futile 
and counterproductive. Electronic content is ubiquitous and easily 
transferable. Media removed from one source is often duplicated 
elsewhere, and a closed website can soon reopen in another guise and at 
another location. Lt. Col. Joseph Felter, Ph.D., Director of the 
Combating Terrorism Center at West Point, told the HSGAC that 
``[a]ttempts to shut down websites have proven as fruitless as a game 
of whack-a-mole.''\42\ Such attempts at censorship would only bring 
greater attention to the objectionable content.
---------------------------------------------------------------------------
    \42\ Statement of Lt. Col. Joseph Felter, Hearing before the Senate 
Committee on Homeland Security and Governmental Affairs, ``The 
Internet: A Portal to Violent Islamist Extremism,'' (May 3, 2007), at: 
http://www.investigativeproject.org/documents/testimony/224.pdf.
---------------------------------------------------------------------------
                            vii. conclusion
    The ACLU recommends that Congress treat unsubstantiated theories 
about radicalization with skepticism and focus the Government's anti-
terrorism research efforts on actual terrorist acts and those who 
commit them rather than on the adoption of beliefs or the expression of 
dissent. Such efforts will likely be more successful at providing a 
clear picture of the threats we face and the appropriate methods we 
need to employ to address them without violating the constitutional 
rights of innocent persons. Fear should not drive our Government 
policies. As Justice Brandeis reminds us,

``To courageous, self-reliant men, with confidence in the power of free 
and fearless reasoning applied through the processes of popular 
government, no danger flowing from speech can be deemed clear and 
present unless the incidence of the evil apprehended is so imminent 
that it may befall before there is opportunity for full discussion . . 
. Only an emergency can justify repression. Such must be the rule if 
authority is to be reconciled with freedom.''\43\
---------------------------------------------------------------------------
    \43\ Whitney v. California, 274 U.S. 357, 376, (1927), (Brandeis, 
J., Concurring).

    Protecting our First Amendment freedoms will both honor our values 
---------------------------------------------------------------------------
and keep us safe.

    Ms. Harman. Thank you very much.
    We will now hear testimony from Dr. Weine.

STATEMENT OF STEVAN WEINE, PROFESSOR OF PSYCHIATRY AND DIRECTOR 
   OF THE INTERNATIONAL CENTER OF RESPONSES TO CATASTROPHES, 
               UNIVERSITY OF ILLINOIS AT CHICAGO

    Dr. Weine. Chair Harman, Ranking Member McCaul, Chairman 
Thompson, distinguished subcommittee Members, thanks for the 
opportunity to testify before you today.
    I am a psychiatrist, as you heard, who works 
collaboratively with refugee and migrant communities to address 
priority needs in those communities.
    Over the past 2 years, a group of Minnesota Somalis crossed 
the line to violent radicalization through their involvement 
with Al-Shabaab. They went to Somalia, they attended training 
camps and they conducted operations.
    The recruits were males between the ages of 17 and 30. They 
were born in Somalia, raised in refugee camps in Kenya, then 
came as refugees to the United States when they were children 
and were raised in an impoverished, divided community. They 
included high-achieving high school and college students.
    In all other ways, the recruits were indistinguishable from 
the other members of their community. What motivated them? 
Their movement towards violent radicalization could be 
explained by multiple push and pull factors.
    Most in the Somalia refugee community in Minnesota are 
subject to push factors that distinguish them from other 
American Muslims, such as war exposure, forced displacement, 
living in refugee camps, poverty, ghettoization, secondary 
migration, inadequate services, and family instability.
    Pull factors also played a key role--internet exposure to 
violence in Somalia and to extremist political and ideological 
views, the Somali warrior tradition, the 2006 Ethiopian 
invasion of Somalia.
    All these factors were skillfully manipulated by recruiters 
who were former Al-Shabaab fighters who reached out to 
potential recruits through social networking technology and 
face-to-face contacts.
    The result was that at least 18 Somalis left home in 
Minnesota and flew to Somalia without telling their parents. 
Seven have been killed. Four are in custody. Seven are believed 
to be in Somalia.
    Can violent radicalization occur with more Somali 
Americans? In my opinion, U.S. Somalis remain highly 
susceptible to violent radicalization as long as Al-Shabaab is 
active in Somalia. Recruiters' previous success in convincing 
the best and brightest young men from that community to go 
their way shows how susceptible these young Americans are.
    Now, the FBI's success in apprehending some recruiters and 
preventing more from mobilizing is encouraging, but several key 
concerns remain. Others may have been radicalized and recruited 
but did not mobilize, and they are still there. Wannabe or 
``lone wolves'' amongst that community could emerge.
    No broader preventive efforts have tried to lessen the 
susceptibility to recruiters. There is a stark disconnect 
between counterterrorism and both community policing and 
service provision in these refugee communities.
    Recent events have shown that young men from Muslim refugee 
and migrant groups from other failed states with violent 
extremism are also susceptible to violent radicalization.
    What steps could help? Now, as a prevention researcher with 
refugee and migrant communities, I know that prevention, like 
terrorism itself, is local. Families and communities, local 
police and services providers--they all need to be centrally 
involved. They are in the best positions to identify who is 
most at risk.
    But in order to provide help, they require guidance and 
support. We should draw upon psycho-social and public health 
expertise and apply it to preventing homegrown terrorism.
    I recommend the following steps. No. 1, conduct research to 
identify the protective resources in families and communities 
that mitigate against violent radicalization.
    No. 2, develop and implement parenting education 
initiatives to protect against radicalization and recruitment.
    No. 3, develop and implement community-level prevention 
that increases community support for at-risk youth such as 
mentoring, especially where recruiters are known to be active.
    No. 4, strengthen the collaboration between at-risk 
communities and local police and service providers.
    Now, to take these steps, we need scientifically rigorous, 
conceptually-based investigations of how radicalization and 
recruitment occur. Journalistic reports are helpful, but they 
are not enough to develop prevention.
    We have started to work with families of recruited Somali 
youth so we can together develop effective preventive 
interventions and spread those around.
    But of course, the needs for this type of preventive work 
can be found in several diaspora communities throughout the 
United States. The problem is this. Presently, no Government 
entity exists that is committed to sponsoring this research.
    We need a multidisciplinary commission or institution that 
would develop and sponsor investigation into the family and 
community dimensions of violent radicalization in the United 
States and would work with governmental, non-governmental, and 
community partners.
    In conclusion, the recruitment of United States Somalis as 
well as other recent examples of homegrown terrorism 
demonstrate that in addition to intelligence gathering and law 
enforcement, we need new approaches in counterterrorism for 
managing those risks, through working with communities and 
families.
    If not, recruiters will continue to know better how to find 
and help potential recruits than we will. Thank you.
    [The statement of Dr. Weine follows:]
                   Prepared Statement of Stevan Weine
                           December 15, 2009
    Chair Harman, Ranking Member McCaul, and distinguished subcommittee 
Members, thank you for the opportunity to testify before you today to 
discuss: (1) How people are moved from constitutionally-protected 
thought to acts of terrorism; (2) what steps could help to prevent this 
movement. I will do so by focusing on the recent violent radicalization 
of U.S. Somalis in Minnesota, one of a recent number of worrisome 
instances of ``homegrown terrorism''.
    I am a psychiatrist and researcher with more than 15 years' 
experience conducting a NIH-funded program of investigating, 
intervening, and collaborating with multiple refugee and immigrant 
communities. I lead the Working Group on Somali Youth and Psychosocial 
Counterterrorism, an interdisciplinary group comprised of psychiatry, 
psychology, nursing, and public health professionals. When we look at 
present efforts to understand and prevent violent radicalization, we 
see a lack of adequate conceptualization of family and community 
processes impeding progress in the development of effective prevention 
strategies.
    In my testimony I will describe what is known about those who 
mobilized and show that there is a set of contextual risks for violent 
radicalization deserving of our attention. I propose strategies derived 
from public health interventions for managing the risks of violent 
radicalization that focus on ways to enhance community and family 
protective resources for those at risk.
                        recruitment in minnesota
    On October 29, 2008, 27-year-old Shirwa Ahmed of Minneapolis 
detonated one of six coordinated car bombs attacking the presidential 
palace, the Ethiopian consulate, and the UNDP in Hargeisa-Bosaso, 
Somalia in a coordinated attack organized by the Al-Shabaab extremist 
organization (Thomas and Ryan, 2008). This attack killed at least 30 
people, including U.N. aid workers. The U.S. Government allowed his 
body to return to Minneapolis where he was buried.
    Between late 2007 and Autumn 2008 an estimated 20 or more Somali 
refugee adolescent boys and young men living in the Minneapolis area 
secretly left their homes and flew to Somalia to join militant 
extremist training camps run by the Al-Shabaab extremist organization. 
These men crossed a line into violent radicalization through 
involvement with Al-Shabaab, a designated foreign terrorist 
organization with known ties to al-Qaeda. Specifically, several men 
recruited others in Minneapolis and provided financial support to those 
who traveled to Somalia to fight on behalf of Al-Shabaab; several 
attended terrorist training camps operated by Al-Shabaab and then 
fought on behalf of Al-Shabaab in Somalia.
    Drawing a distinction between radicalization and violent 
radicalization is important. For the Somalis who mobilized, the issue 
is not only or necessarily one of radicalization, defined as commitment 
to extremist political or religious ideology. Terrorist researchers 
argue that our central concern should be on preventing violent 
radicalization and not radicalization per se. It's not what people say 
or think, but whether they commit violent acts that counts.
    Because this investigation is on-going, youth are still at large, 
and some families are not trustful enough to talk to outsiders, at 
present not all facts are public or even known. What is publically 
known regarding the Minnesota Somalis is that thus far seven have been 
killed, four are in custody, three of whom have pled guilty, and seven 
are at large, believed to be in Somalia.
    This movement towards violent radicalization is not limited to 
Minnesota Somalis. A 24-year-old Somali man who lived for 20 years in 
Copenhagen was identified as the man who carried out the December 3, 
2009 suicide bombing that killed 23 people in Mogadishu at a medical 
school graduation ceremony (Houreld, 2009). In September 2009, Omar 
Mohamed, an 18-year-old Somali American from Seattle, detonated a 
suicide bomb in Somalia against peace-keepers that killed 25 African 
Union peacekeepers. In 2005 in London, two child dependents of asylum 
seekers from Somalia, Yasin Omar and Ramzi Mohammed, became failed 
bombers. In October 2007 an unnamed 21-year-old Somali business student 
from Ealing, United Kingdom, joined Al-Shabaab and made a suicide 
attack in Baidoa.
    Table 1 summarizes what we know about those who mobilized from 
Minnesota. I will draw upon this information in light of existing 
knowledge and theory regarding violent radicalization to address the 
following questions:
    1. Are there any identifiable risk factors for violent 
        radicalization?
    2. What is the process of movement to violent radicalization?
    3. How should we approach those who joined Al-Shabaab and either 
        have returned or may possibly return at a later date?
    4. Can violent radicalization reoccur with more U.S. Somali youth?
    5. What steps could help to prevent violent radicalization in U.S. 
        diaspora communities?
    1. Are there any identifiable risk factors for radicalization and 
recruitment? Empirical research on terrorists does not support looking 
solely at individual-level risk factors (Horgan, 2009). Nor does it 
support the claim that there is a particular profile of terrorists that 
clearly distinguishes them from the general population, other than 
their involvement in violent radicalization. It supports looking at 
group or organizational factors, but also not exclusively. Though there 
is some disagreement in the field regarding whether to lean more 
towards individual or towards group and organizational factors, a 
consensus position is that it is more accurate and productive to focus 
on the person in context. Stated otherwise, it is important to pay 
attention both to push factors (social, economic, and cultural 
conditions impacting upon a whole community), pull factors (leading a 
relative few to engage in violent radicalization), and counter-pull 
factors (efforts working against the impact of pull factors).
    All those that engaged in violent radicalization were born in 
Somalia, raised in refugee camps, and were resettled in the United 
States as refugees during childhood or adolescence. They are neither 
first nor truly second generation, but belong more to what is referred 
to as ``Generation 1.5'' (Alsaybar, 1999). They were raised in large 
families by single mothers in ghettoized communities, and attended 
public schools. The recruits experienced the stresses common to most 
refugee adolescents due to traumatic histories and community violence, 
as well as from financial, health, family, peer, community, cultural, 
and school stressors (Ellis et al, 2008).
    They all likely shared an exposure to community-level challenges 
including poverty and community fragmentation. Many Somalis in 
Minnesota live in low-income housing in impoverished communities, 
especially the Cedar-Riverside neighborhood, also known as ``Little 
Mogadishu'', which is east of downtown Minneapolis. The center of the 
Somali community in Cedar-Riverside is a large urban renewal high-rise 
project named the Riverside Plaza, also known as the ``Towers'', where 
more than 3,000 Somalis live. Though originally conceived as a mixed-
income community, it is highly impoverished, geographically isolated 
from the rest of the city, and crime-ridden, with drugs, gangs, and 
drive-by shootings. For example, in Autumn 2008, Ahmednur Alia, a 20-
year-old college student who aspired to be the president of Somalia, 
was murdered by another Somali youth while volunteering at a community 
center (Temple-Raston, 2009). Such events have been highly demoralizing 
to the Somali community and especially youth, including some of those 
who radicalized. For one of the recruits, Mohamoud Hassan, this murder 
may have contributed to a greater susceptibility to radicalization and 
recruitment. He told a friend, ``I used to think that death only 
happens to old people. But he was young--my age. I guess I could die 
tomorrow.''(Elliot, 2009)
    Many but not all the men who were mobilized to violent 
radicalization lived in the Cedar-Riverside neighborhood, and five 
lived in the Towers at some point. They attended four different high 
schools and three different colleges and did not all attend the same 
mosque. Within the Cedar-Riverside neighborhood there are six mosques 
and a plethora of Somali-run malls, small businesses, and restaurants. 
The community is known for its fragmentation along clan and sub-clan 
lines. There are well over 100 non-profit Somali Mutual Assistance 
Associations seeking funds and projects. A few are thriving, but most 
exist in name only. Ubah Shirwa, publisher of Haboon, the Somali 
magazine in Minneapolis, stated, ``The divisions that existed in 
Somalia exist here, and they are focused on the politics back home'' 
(Banarjee, 2009). The existence of so many divisions within the 
community impedes the delivery of community-level support as well as 
community collaboration with social services, health services, and law 
enforcement.
    Research on U.S. Muslim immigrant communities finds that they are 
predominantly middle class (only 2 percent reported living in poverty) 
and not at significant risk for radicalization, unlike European Muslims 
whom, it has been argued, experience a ``failed integration'' (PEW 
Research Center, 2007; Ruffer, 2008). The experience of Minnesota 
Somalis, 60 percent of whom live in poverty, more closely resembles 
that of Muslim immigrants in the United Kingdom, Spain, and France 
where 20 percent or more live in poverty (PEW Research Center, 2007). 
When surveyed in 2007, 15 percent of U.S. Muslims ages 18 to 24 
believed suicide bombings could be justified (PEW Research Center, 
2007, p. 54). Somalis were the first U.S. Muslim youth to join an al-
Qaeda affiliated extremist organization and act on these attitudes. In 
part for these reasons, Ralph S. Boelter, the special agent in charge 
of the FBI's Minneapolis office, stated, ``This case is unlike anything 
we have encountered'' (Elliot, 2009).
    Still, only a very small number of Somali youth and young adults 
are known to have become involved in terrorism (20) compared to the 
overall Somali population in Minnesota (estimated at 84,000). Think 
about that from the perspective of Somali parents. Parents have far 
more reason to be concerned about the risks of school drop-out, drug 
use, gang involvement, or even autism, which have much higher 
prevalence in their community.
    Somalis express serious concerns regarding the negative image of 
their community that has been spread due to media attention focusing on 
the radicalized boys and men. From a community perspective, there are 
many signs of strength in this community, including: Somalis working in 
all sectors of society (Darboe, 2003), increasing numbers becoming 
college educated (especially girls), establishment of businesses, 
establishment of mosques, several Somali community newspapers, 
magazines, and websites.
    As indicated in Table 1, the mobilization to violent radicalization 
occurred in two waves. The first wave took place in late 2007 and those 
who mobilized were ages 24 to 30 (mean 25.8). The second wave took 
place in Autumn 2008 and those who mobilized were younger, between ages 
17 and 27 (mean 19.7). All the Somali youth and young adults who 
engaged were male. Here, it is relevant to mention the Somalia warrior 
tradition (Federal Research Division, 2004). This culturally-inscribed 
coping mechanism guided some boys and young men to take pride in school 
or sports, but could also have lead others towards gang activity or to 
affiliation with militant extremists.
    All the recruits shared in exposure to certain family-level 
characteristics typical of refugee families. These included the 
experiences of war exposure and forced migration prior to coming to the 
United States. The U.S. Somali refugees' experiences are like those of 
other groups that have fled war in their countries and became refugees. 
Somali refugees were exposed to war-related traumas and losses, 
escaped, and then lived in refugee camps (predominately in Kenya) for 
years, where youth attended either no school or had some inadequate 
schooling, and were exposed to radical ideologies (Halcon et al., 
2004). As children, the youth who mobilized to violent radicalization 
were either not directly exposed to war violence in Somalia or were too 
young to remember it, though traumatic exposure and memories were 
highly prevalent amongst their parents' generation. A large 
epidemiological survey conducted in the Twin Cities found that 37 
percent of Somali women and 25 percent of Somali men had been tortured 
and that the torture survivors reported significantly more symptoms of 
Post-traumatic Stress Disorder (PTSD) and more physical and 
psychological problems (Jaranson et al., 2004). Nearly half of Somali 
mothers were torture survivors; more than a quarter had no formal 
education; 70 percent were single parents (Robertson et al. 2006).
    In terms of their educational and occupational achievement, the 
recruits do not fit one profile. Two had criminal records. Zakaria 
Maruf was a former gang member. Mohamoud Hassan and Abdisalam Ali 
attended the University of Minneapolis, and Jamal Bana attended the 
Minneapolis Community and Technical College. That higher-achieving 
youths were targeted by recruiters fits a well-known pattern of 
recruiters seeking out high-achievers (Gambetta & Hertog, 2007; Horgan, 
2009; Post, 2007).
    In summary, other than being males between 17 and 30, the recruits 
were not distinguishable from other Somalis on the basis of risk 
factors, and included both criminals and high achievers.
    2. What is the process of movement to violent radicalization? 
Terrorism researchers (Horgan, 2009) have identified some 
characteristic attitudes in terrorists from other contexts that are 
important elements of the process of movement to violent 
radicalization: Temporary emotional state; dissatisfaction with current 
activity; desire to do something; identification with victims; belief 
that there is nothing inherently immoral in violence; an expectation of 
reward to accompany increased involvement; kinship or other relevant 
social ties. Reflecting upon these characteristics and what has been 
discussed publically we can make some preliminary claims regarding the 
process of movement.
    These youth were motivated by the 2006 Ethiopian invasion of 
Somalia of which the recruiters appeared to make deliberate and 
strategic use. It is important to recognize that the idea of defending 
your homeland is not in and of itself a radical idea. Thus it was 
possible for youth to be motivated more by Nationalist sentiments than 
by specifically anti-American or anti-Western sentiments. The 
recruiters did not necessarily have to evoke radical ideas in order to 
get the youth to want to return to Somalia. They could have been 
radicalized later when they got to Al-Shabaab training camps. Indeed, 
it appears that one youth, Burhan Hassan, a high school senior and A 
student at Roosevelt High School who dreamed of attending Harvard, was 
killed in Somalia by Al-Shabaab, perhaps because he was resistant to 
violent radicalization.
    Community and family members said that they believe the 
radicalization happened very fast. If this is true, then it could in 
part be a function of rapidly shifting adolescent identity. It could 
also have been the perceived urgency of the situation in Somalia. But 
it could also be because observers did not see the processes of change 
unfolding in the youth. Retrospectively, families say that the youth 
were unusually ``pensive'' and ``serious'' in the months leading up to 
their disappearances.
    Because Somali adolescents stayed connected with Somalia through 
the internet, the recruits were likely to have been exposed to violent 
imagery and extremist ideology on the internet prior to their 
radicalization. One said, ``Somalis are the most wired of all African 
refugees. When someone is killed, even in a village, we watch it on 
YouTube'' (personal communication). For example, Mohamoud Hassan read 
jihadist material on the internet and listened lectures by the Yemeni 
cleric Anwar al-Awlaki, as have multiple other terrorist suspects in 
the United States (Shane, 2009), including the five U.S. Pakistanis 
(Gilani and Perlez, 2009). It is likely that after being catalyzed by a 
recruiter, individually and as a group, the new recruits went deeper 
and further into available internet materials.
    Information on the recruiters is still emerging as the 
investigation is on-going. It is reported that the first recruiters 
were Somalis from Europe who had returned to fight in Somalia in 2005. 
They actively tried to reach Somali youth in Minneapolis. These 
recruiters' relationships with their recruits suggests some 
similarities with the ``bunch of guys'' description of Marc Sageman 
(2005), whereby an informal network of friends together progress deeper 
and deeper into religious extremism and eventual terrorism. However, 
available evidence also suggests elements of a more top-down 
recruitment process whereby young men with prior militant experience 
and the active support and coordination from the Al-Shabaab terrorist 
organization in Somalia sought out younger men in the United States 
(Associated Press, 2009). At this point, not enough is known to more 
definitively clarify the issue of whether mobilization was more top-
down or bottom-up. On November 23, 2009, the FBI unsealed charges filed 
against eight American citizens involved in the recruitment effort 
(Elliot, 2009). These included two men accused of recruiting, 
Cabdalaahi Ahmed Faarax and Abdiweli Yassin Issee, and a third man, 
Mahamud Said Omar, accused of helping with finances.
    Reports on the on-going investigations in Minneapolis indicate the 
extent to which the Al-Shabaab organization actively reached into the 
United States. One recruiter, Zakaria Maruf, operated from southern 
Somalia using individual phone calls, conference calls, e-mail, 
listservs, and Facebook to reach out to other youth in Minnesota, many 
of whom he knew from his years in Minnesota (Elliot, 2009). He wrote, 
``Bring your self over here . . . to M-town'' (Elliot, 2009). A 
terrorism consultant, Clint Watts, stated ``I think the biggest 
recruiter for a foreign fighter is the former foreign fighter'' 
(Banerjee, 2009, emphasis ours). Al-Shabaab also used sophisticated 
propaganda videos that showed martial arts, automatic weapons, dead 
bodies, and suicide bombers. Terrorism consultant Evan Kohlmann stated, 
``I would say they were among the most explicit, the most violent, and 
the most enthusiastic videos of any jihadi organization out there'' 
(Forliti, 2009).
    Some other critical issues remain unresolved. One key question 
relates to the precise reason the youths left the U.S. Somalis in 
Minneapolis debate whether youth were recruited to be ``freedom 
fighters'' against Ethiopian forces, or to be militant extremists to 
fight the West, or whether they went for what locals call 
``reculturation.'' The latter is found in many refugee and immigrant 
communities, where wayward adolescents are sent back to their home 
country to help them get back on track through immersion in their 
culture of origin (Portes & Rumbaut, 2001).
    Regarding the role of religion in this mobilization, the youth who 
were first mobilized were regular attendees of Abubakar As-Saddique 
Islamic Center, the largest Somali mosque in Minneapolis, located 2 
miles from Cedar-Riverside. In 2007, Zakaria Maruf started attending 
mosque and speaking with other youth about the need to turn to 
religion. The second wave of youth that mobilized did not come from 
strong religious backgrounds, but found religion after the Ethiopian 
invasion, when Somali nationalist sentiments were on the rise and 
amplifying religious beliefs.
    Mohamoud Hassan, a 2006 graduate of Roosevelt High School, attended 
the University of Minnesota where he was vice president of the 
Minnesota Somali Student Union, and became interested in radical 
Islamic teachings downloaded from the web and in going to Somalia. On 
his Facebook page, Mohamoud Hassan wrote: ``Allah will never change the 
situation of a people unless they change themselves . . . take a sec 
and think about ur situation deeply what change do u need to make'' 
(Elliot, 2009). His friend reported, ``If it was just nationalism, they 
could give money. But religion convinced them to sacrifice their whole 
life'' (Elliot, 2009). Some of these youth may have been convinced to 
participate in extremist activities in response to what they may have 
perceived as the West's ``non-religious and profane view of the world 
and society'' (Kalin, 2004, p. 176).
    The known recruiters were male, older, former fighters. In a 
patriarchal culture, they could supply the necessary authority to these 
youth, many of whom were raised by single mothers. One of the 
recruiters, Zakaria Maruf, knew several of the boys through community 
networks. Many community members assume that there are more recruiters 
in their community that have not yet been identified or charged. 
Terrorist recruitment is said to involve the following stages: 
Preparing, spotting, indoctrinating, and mobilizing. In this case, 
preparing and spotting may have taken place at sites where Somali youth 
and young men already gather, such as clubs, mosques, living places, 
and workplaces. Though the recruits became more involved in mosques 
after their radicalization, there is no evidence that imams or mosques 
were directly involved and no charges have been filed against them.
    We do not know for certain how easy or difficult it was to recruit 
these boys and men, however, given that they were able to get some high 
achievers to go, it appeared relatively easy. We do not know whether: 
(1) Others were asked but said no (and what became of them); (2) others 
said yes, but were unable to mobilize due to logistical difficulties; 
(3) others said yes, but were stopped by FBI or local police actions.
    What is certain is that the mobilized youth did not tell their 
parents of their intentions before they left. Halima Abdi reported that 
after her son, Mohamed Hassan, was missing for 10 days she received a 
phone call: ``Mum, it's your son Mohamed. I came to Mogadishu to fight 
against the enemies of Somalia'' (Hassan, 2009). Parents reported that 
they suspected that the mosque or clubs were places that youth could 
get recruited. One characteristic of families from Somali is that 
parents do not typically talk with their youth about their daily 
activities and contacts. Parents are often unaware of what is going on 
at school or after-school, which in most cases puts the youth at risk 
of poor school performance, dropping out, drugs, and gang involvement, 
but in this case meant less family protection against violent 
radicalization. If anything, parents were acting on the perfectly 
understandable assumption that going to the mosque is a good thing, 
certainly better than hanging out in the neighborhood where they could 
be subject to violence or drugs or the wrong crowd. To this day, the 
families of the missing boys and men are divided with respect to their 
allegiance to their mosques. Some with children missing have resisted 
speaking with the FBI or local law enforcement, believing that if they 
work through the mosque, they have a better chance of seeing their 
children again. Others have spoken with law enforcement and have spoken 
out against the mosques.
    In summary, political instability in Somalia, the 2006 Ethiopian 
invasion, social difficulties in U.S. refugee communities, family 
instability, and local networks, all adeptly exploited by extremist 
recruiters, have together created contextual risks for violent 
radicalization amongst those Somalis resettled as refugees in the 
United States as children and adolescents.
    3. What should be the approach to those who joined Al-Shabaab and 
either have returned or may possibly return at a later date? Presently, 
three of the recruits have pled guilty and are in Federal custody and 
one is being held in the Netherlands. At least seven Minnesota Somali 
men are believed to be still in Somalia with Al-Shabaab. This does not 
rule out the real possibility that there are other U.S. Somali men in 
Somalia, either from Minnesota or from other U.S. locations. Somalis 
may also have mobilized from other locations in the diaspora including 
Canada, Western Europe, or Australia.
    John Horgan, in Walking Away from Terrorism, distinguished between 
disengagement and deradicalization. Disengagement is when individuals 
change their roles in the movement and reduce their participation in 
violent activities. Deradicalization refers to reducing their 
commitment to and involvement in violent radicalization such that they 
are not at risk of participation in violent activities. Horgan claims 
that disengagement, not deradicalization, is a more attainable goal but 
as with violent radicalization, this is a complex process.
    With respect to the Minnesota Somalis, key concerns are whether the 
recruits could commit terrorist acts in the United States or at 
overseas targets related to the United States and its allies as a 
consequence of their training and indoctrination. One area of 
deficiency in our field is just how could that risk be determined. 
Despite efforts to develop rigorous assessments, there are as of yet no 
reliable ways to know for certain.
    Another concern is how can we act in such a way to inhibit not only 
individuals but to stop the group movement. The U.S. Government has 
prosecuted or indicted these individuals for their criminal behavior, 
hoping that this will serve as a deterrent to others. However, one 
unexamined question is whether Somalis are sufficiently allied with the 
U.S. law enforcement system to cooperate. Pursuit of individuals could 
have the unintended consequence of contributing to the movement of 
others in the United States towards violent radicalization who will see 
this as an issue of oppression of Muslims by the U.S. Government. 
Recruiters looking for every opportunity will no doubt exploit this and 
represent it to potential recruits as oppression.
    4. Can violent radicalization reoccur with more U.S. Somali youth? 
Many in the Somali community fear yes and I share their concern. One, 
they suspect that many more U.S. Somali boys and men have been 
radicalized and recruited (though not yet mobilized) than is publically 
revealed. Two, Al-Shabaab is still active in Somalia and on the 
internet and likely has recruiters on the ground in the diaspora, 
although it has lost some appeal in Somalia and in the diaspora. Three, 
the underlying ``push'' conditions in Minneapolis have not changed, and 
if anything have become exacerbated in the current economic crisis. 
Four, no additional preventive measures have been put in place that 
could serve as a ``counter-pull''. Others in the Somali community say 
that the pull factors were the product of a unique historical moment 
(the Ethiopian invasion) that is unlikely to happen again. But even 
they add that the push factors have not been addressed to any degree 
and that Somali nationalism and Islam will manifest again in a new way.
    What the media hasn't yet picked up on is the possibility that 
Somali youth who were recruited but not mobilized could decide to act 
on their own in the United States. All it takes is one person with the 
right weapons to do great harm and pierce the American consciousness. 
Another possibility is that a Somali who wasn't recruited could turn to 
violent radicalization as either a wannabe or a lone wolf, like Dr. 
Hasan at Fort Hood.
    Some conditions are changing for the better in the Minnesota Somali 
community. More youth are going to college, however they are 
disproportionately female, as many males drop out of high school. More 
families are moving to the suburbs, where they find themselves in less 
ghettoized and more integrated communities and schools. These are 
expected socioeconomic changes in a refugee community. At the same 
time, the present global economic crisis has impacted U.S. Somalis in 
terms of unemployment and underemployment and cutbacks in already 
strained social, mental health, and educational services. Of special 
concern is that more Somali young people will get U.S. passports and 
will travel abroad, making it harder to monitor and to distinguish 
those mobilizing for training from those visiting family. Thus the 
improving conditions in the Somali community should not give us false 
assurance of lower risk for violent radicalization.
    Somalis are not our only concern. Our concern should include all 
those from failed states that house extremist militant movements. At 
present that includes Pakistan, Afghanistan, Iraq, and Iran. In the 
past few weeks we have seen several troubling examples of ``homegrown 
terrorists'' from the U.S. Pakistani diaspora, including David Headley 
and other U.S. citizens who apparently planned to commit jihadist 
terrorist acts abroad.
    Lastly, the enhanced U.S. involvement in Afghanistan and Pakistan 
could have the effect of again inflaming U.S. Muslims, including but 
not limited to Somalis, to move towards violent radicalization.
    5. What steps could help to prevent violent radicalization in U.S. 
diaspora communities? Counterterrorism prevention in the United States 
is largely approached as an activity of intelligence gathering and law 
enforcement. Regarding the Somali recruitment, the FBI has investigated 
those who have committed crimes or those about to do so (not only 
expressing radical ideas, but financing or joining or recruiting for a 
terrorist organization). The 2006 National Implementation Plan gave 
Federal and local law enforcement more powers to gather intelligence in 
the United States such as travel patterns. But there are limits, say 
with respect to investigating those who are radicalized perhaps on 
their way to violent radicalization, such that putting all young Somali 
or Pakistani men on a no-fly list would be regarded as a violation of 
their constitutional rights.
    The community is regarded as a source for tips and a site for 
conducting individual investigations. As far as I know, the FBI does 
not attempt any deliberate or systematic community-level involvement or 
programming. It is left up to local police to do the community policing 
with ethnic minority communities, but outside of large urban areas like 
New York, Chicago, and Los Angeles, community policing does not 
reliably incorporate counterterrorism activities. And very rarely do 
those counterterrorism activities move beyond intelligence gathering 
and criminal investigation to include community-based counterterrorism 
prevention strategies (Downing, 2009).
    Few existing programs have attempted to utilize psychosocial 
approaches to mitigate radicalization and to prevent recruitment. The 
most notable effort is the government-run Preventing Violent Extremism 
initiative in Great Britain (Department of Communities and Local 
Government, 2007). The central aims include: (1) Challenging the 
violent extremist ideology and supporting mainstream voices; (2) 
Disrupting those who promote violent extremism and supporting the 
institutions where they are active; (3) Supporting individuals who are 
being targeted and recruited to the cause of violent extremism; (4) 
Increasing the resilience of communities to violent extremism; (5) 
Addressing the grievances that ideologues are exploiting. To date, this 
project has reported significant achievements. There is a clear need to 
learn from such programs and let their experience inform the 
development of U.S. initiatives with Somalis and other groups. However, 
it is also clear that interventions that worked in one sociocultural 
setting are not readily exportable to another without significant and 
context-specific modification. For example, the scale of Pakistanis in 
the United Kingdom is simply much greater than that of any particular 
Muslim community in the United States, so that difference would have to 
be addressed.
    One central aim of counterterrorism is to inhibit potential 
recruits from joining terrorist organizations in the first place. In 
addition to intelligence gathering and law enforcement, especially 
focused on eliminating recruiters, there is a need to work with 
communities and families to counter radicalization and recruitment. 
This type of practice can utilize a psychosocial perspective and 
strategies derived from public health interventions (Psychosocial 
Working Group, 2002 & 2003). These could operate at multiple levels to 
both diminish push factors and to enhance counter-pull factors. What we 
learned from the case study thus far indicates some different ways this 
could be approached:
    A. Identify community and family protective resources.
    B. Develop and disseminate credible counter-narratives to those 
        offered by recruiters and websites.
    C. Educate and support parents to increase their knowledge, 
        awareness, and prevention skills regarding recruitment of 
        youth.
    D. Address community level push factors through better provision of 
        services and resources.
    E. Build community-level preventive interventions that seek to 
        increase community support for youth, especially where 
        recruiters are active.
    F. Enhance community to service organization collaborations.
    G. Form multidisciplinary collaborations.
    A. Identify community and family protective resources. Because 
Somali youth come from families who left Africa and moved to the United 
States in search of a better life, we would attempt to tap into the 
hopes and dreams that they carry with them. Though many live in 
difficult circumstances, most have reported satisfaction with their 
lives in the United States (Halcon et al, 2004; Robertson et al, 2004). 
A psychosocial approach is based on the assumption that susceptibility 
should be modifiable by strengthening the family and community 
protective processes found even amidst adversity (Note: protective 
resources are defined as family and community characteristics that 
stop, delay, or diminish negative behavioral outcomes, to include 
violent radicalization, in at-risk refugees and migrants). This basic 
assumption has been validated in a range of public health interventions 
concerning violence, drug use, and HIV in highly adverse conditions 
(Ashery et al, 1998; Group for Advancement of Psychiatry, 1999; 
O'Connel et al, 2009; Trickett, 2005). Thus one key research question 
from a psychosocial perspective is: What are the potentially modifiable 
family and community protective factors that impact violent 
radicalization? Mixed ethnographic and survey methods such as are being 
implemented in studies of refugee adolescents from other ethnic groups 
offers means to accurately answer this question (Weine, Ware, & Lezic, 
2004; Weine, 2006). Findings from other diaspora communities point to 
the roles of parenting, parental involvement in education, 
organizational outreach to families, mentoring, and faith communities 
(Weine, 2009).
    B. Develop and disseminate credible counter-narratives to those 
offered by recruiters and websites. There has been increased interest 
in understanding and developing narratives and counter-narratives 
(Competing Networks and Narratives Weekly, 2009; Weine, 2006). From 
examining the U.S. Somali cases we have identified several potential 
themes that could be used in narrative scripts for youth and for 
parents: (1) Your families came to United States to get you out of war-
torn Somalia, so why should you return there; (2) The conditions of war 
in Somalia are far worse than what you can imagine; (3) The people of 
Somalia will not look at you as a real Somalian, but as an American. 
They will not welcome you; (4) You are not being recruited to fight as 
a soldier against an army, but to become a terrorist; (5) Your family 
in the United States will suffer greatly if you go to Somalia. If you 
survive, you will be considered a terrorist and a criminal by the U.S. 
Government; (6) You will be subject to divisions and fights between 
clans and sub-clans in Somalia; (7) You can better serve Somalia by 
helping to build the diaspora community here through your education and 
career and participation in Somali and American civic organizations.
    C. Educate and support parents to increase their knowledge, 
awareness, and prevention skills regarding recruitment of youth. We 
would design family interventions for Somali families based upon 
contextual knowledge of the complex social circumstances of refugee and 
immigrant youth. These interventions would target those at the highest 
risk (e.g. males, ages 12-25, with single mothers). For example, there 
is a profound worry among many U.S. Somalis that parents cannot control 
the behaviors of teens and young men. However, what is learned from 
those who are not radicalized may help in understanding what can be 
provided for those at risk of radicalization. Some parents and 
community leaders do actively talk with youth about radicalization and 
recruitment. Through interviews and observations of parents and 
community leaders and the utilization of qualitative research methods 
of data analysis it should be possible to learn: What exactly do the 
parents say and why, how is it received by youth, and do these messages 
impact the youths' behaviors?
    These insights could help to craft parenting education and support 
interventions (e.g. teaching families to talk about recruitment, 
helping parents to take practical steps such as hiding passports and 
monitoring internet and e-mail use) that aim to reduce susceptibility 
to recruitment through changing family support in a way that the 
community recognizes as helpful. National Institute of Health (NIH)-
funded research to support refugee families has been shown to be 
feasible, acceptable, and effective (Weine, 2008). Multi-family groups 
such as the CAFES (Coffee and Family Education and Support) program 
have been shown to be effective in changing individual behavior by 
improving family communication (Weine et al, 2005; Weine et al, 2006, 
Weine et al, 2008). Similarly, a Somali Mothers Health Realization 
intervention has enabled mothers to distance themselves from negative 
intrusive thoughts so as to promote proactive common-sense parenting 
strategies (Robertson, 2004). These successful approaches could be 
extended to countering radicalization and recruitment with Somali 
families, and naturally would require rigorous on-going assessment to 
determine their effectiveness in that process.
    D. Address community level push factors through better provision of 
services and resources. Another pressing need is to address the lack of 
adequate solutions to deal with secondary migration, so prevalent among 
U.S. Somalis. This term reflects the movement by most of the Somali 
refugees to Minnesota from their initial place of resettlement 
elsewhere in the United States. For example, Shirwa Ahmed's family was 
resettled in Portland and Mohamoud Hassan's had lived in San Diego. The 
majority of Somali refugees presently in Minnesota moved there without 
having funds and services dedicated to them; those funds remained in 
the State of first resettlement (Haines, 1996). This has become a 
serious deficiency, not least given the high number of resettled 
refugees who move to Minnesota following their initial resettlement. 
Significant improvements are needed both in decreasing the motivation 
for moving (e.g. not separating refugees from family members and 
providing adequate housing and employment), in counseling those who are 
considering moving, and in providing adequate services to those who 
nonetheless do relocate to Minnesota.
    Yet another key deficiency is the difficulty in responding to the 
particular needs of adolescent refugees themselves (Ellis et al, 2008). 
This subgroup of refugees is typically the most vulnerable to 
behavioral and criminal problems, but invariably also tends to receive 
less help from service organizations. For the most part, much younger 
children tend to receive more targeted after-school services and 
parental involvement in education. Far less help is offered for 
adolescents and young adults to find vocations and to integrate into 
mainstream society. Addressing these problems in Somali and other 
groups' refugee resettlement could play a role in diminishing and 
limiting the impact and expression of local grievances concerning 
inadequate educational, health, social, and mental health services, 
thus reducing the ``push'' and improve the counter-``pull'' in refugee 
communities.
    E. Build community-level preventive interventions that seek to 
increase community support for youth, especially where recruiters are 
active. Beyond family interventions, we must design interventions that 
work with U.S. Somalis at multiple community levels. For example, it is 
expected that youth with local role models who have either integrated 
or speak positively about integration are less interested in or 
supportive of radicalization. Through examining these community 
influences upon youth, drawing upon successful intervention models, and 
carefully adapting them to the targeted refugee communities, pilot 
projects could be developed.
    In Minnesota, for example, community projects could aim to: (1) 
Provide Somali male mentors for Somali refugee youth who encourage 
their development, careers, and education; (2) form a network of local 
and State leadership groups to provide leadership development and 
encourage refugee youth to participate in civic engagement and public 
service; (3) provide training and tools to imams and community leaders 
on how to identify and prevent recruiters from gaining access to Somali 
youth in the mosques, in order to protect both the youths and their 
communities from harm in the short- and long-term. Because no one 
intervention is going to reach all in a community, deploying multiple 
interventions in different community sectors would be warranted. Pilot 
projects would necessarily be rigorously assessed for feasibility, 
acceptability, effectiveness with measurable outcomes, and processes of 
change.
    F. Enhance community to service organization collaborations. 
Successful psychosocial projects with U.S. Somalis must involve 
communities as active collaborators in developing, refining, and 
testing interventions through partnerships with local associations, 
schools, mosques, and clinics. The establishment and maintenance of 
these partnerships is a considerable challenge. However, successful 
partnerships have been achieved by community services research 
collaborations working in many difficult settings while addressing 
public health problems that are no less vexing than terrorism 
(Stevenson, 1994) as well as through community policing. 
Counterterrorism efforts could learn from what prior programs have 
found regarding impediments to collaboration as well as helpful 
facilitators, such as incorporating community values, being responsive 
to local needs, providing incentives, and sharing information (McKay & 
Paikoff, 2007).
    G. Form multidisciplinary collaborations. This psychosocial 
approach to counterterrorism does not currently represent a focus of 
counterterrorism, law enforcement, education, social and mental health 
services, or academic scholarship. To be effective, however, the 
psychosocial approach to counterterrorism will require input from these 
varied domains. This episode with U.S. Somalis has revealed knowledge 
and practice gaps that call for the development of a new type of 
program that would enhance law enforcement's, psychosocial workers', 
and community agencies' abilities to prevent, predict, and investigate 
terrorism in the highly complex and fluid community contexts where they 
work--in this case, U.S. diaspora communities linked in some way with 
failed states and extremist militant movements. This could be 
accomplished by bringing together key stakeholders from these arenas 
through consultation, research, and training to provide constructive 
interventions for preventing the involvement of refugee children and 
young adults in terrorism. Similar multi-disciplinary program models, 
such as the Yale Child Development-Community Policing Partnership, have 
proven highly effective in creating and implementing programs 
concerning child victims of violence (Marans & Berkman, 1997). The 
specific aims of such a collaborative initiative could include: (1) 
Enabling psychosocial expertise to directly support the decision-making 
and activities of counterterrorism law enforcement; (2) conducting 
analysis and research on emergent counterterrorism/psychosocial issues 
that will help to develop and enhance counterterrorism (as described 
above in the ethnographic study); (3) designing and implementing 
collaborative programs for terrorism prevention (as described above in 
the intervention pilot study); (4) providing education, training, 
technical assistance, fellowships both to counterterrorism and law 
enforcement on psychosocial issues and to psychosocial workers on 
counterterrorism.
                              conclusions
    Although a new large wave of Somali recruits going abroad is 
unlikely to repeat itself, there is clearly a substantial risk for 
homegrown terrorism amongst U.S. Somalis and other Muslim refugee 
groups from failed states with violent extremism. The situation of 
Somalis in Minnesota is an opportunity to explore a new path in 
counterterrorism for managing those risks through a psychosocial 
approach. A path we may very well need.

                  TABLE 1.--INFORMATION ON THE ALLEGED RECRUITED AND RECRUITERS FROM MINNESOTA
----------------------------------------------------------------------------------------------------------------
                                                    Residence in         Education &
             Name                     Age*            Minnesota           Employment              Outcome
----------------------------------------------------------------------------------------------------------------
First Wave (left Minneapolis
 in 2007)
Khalid Mohamud Abshir.........  26..............  Minneapolis.....  Unknown..............  Indicted; believed to
                                                                                            be in Somalia.
Shirwa Ahmed..................  26..............  Minneapolis       2000 graduate of       Killed October 29,
                                                   (moved from       Roosevelt High;        2008 in suicide
                                                   Portland).        worked near Towers;    bombing.
                                                                     became religious in
                                                                     2003.
Salah Osman Ahmed.............  26..............  New Brighton....  Attended North         In Federal custody;
                                                                     Hennepin Community     pled guilty.
                                                                     College; worked as
                                                                     security guard.
Kamal Said Hassan.............  24..............  Plymouth........  Worked as waiter near  In Federal custody;
                                                                     Towers; attended       pled guilty.
                                                                     Minneapolis
                                                                     Community and
                                                                     Technical College in
                                                                     2006; on resource
                                                                     committee at mosque.
Badiftah Yusuf Isse...........  25..............  Minneapolis       Worked at car rental   In Federal custody;
                                                   (moved from       company; Active in     pled guilty.
                                                   Seattle).         mosque youth program.
Zakaria Maruf.................  30..............  Minneapolis       2000 graduate of       Killed July 11, 2009
                                                   (moved from San   Edison High;           in Mogadishu.
                                                   Diego; lived in   criminal record
                                                   Towers).          since age 14;
                                                                     employed at Walmart;
                                                                     also served as
                                                                     recruiter.
Ahmed Ali Omar................  24..............  Minneapolis       2004 Edison High       Believed to be in
                                                   (lived in         graduate; emergency    Somalia.
                                                   Towers).          medical technician.
Second Wave (left Minneapolis
 in 2008)
Abdikar Ali Abdi..............  ?...............  Hopkins, (a       Attended mosque in     Believed to be in
                                                   Minneapolis       St. Paul.              Somalia.
                                                   suburb).
Abdisalam Ali.................  19..............  Minneapolis       Edison High graduate;  Believed to be in
                                                   (moved from       president of Somali    Somalia.
                                                   Seattle; lived    Student Association;
                                                   in Towers).       health student at U.
                                                                     Minnesota; wanted to
                                                                     become a doctor.
Jamal Sheikh Bana.............  19..............  Minneapolis       Engineering student    Killed in Mogadishu.
                                                   (moved from       at Minneapolis
                                                   Georgia).         Community and
                                                                     Technical College
                                                                     and Normondale
                                                                     College; worked at
                                                                     Macy's and as
                                                                     security guard at
                                                                     public housing.
Burhan Hassan (``Little         17..............  Minneapolis       Senior at Roosevelt    Killed June 4, 2009
 Bashir'').                                        (lived in         High School; spent a   in Mogadishu by Al-
                                                   Towers).          lot of time at         Shabaab.
                                                                     mosque; wanted to
                                                                     attend Harvard.
Mohamed Hassan (``Miski'')....  17..............  Minneapolis       Senior at Roosevelt    Killed in Mogadishu.
                                                   (lived in         High.
                                                   Towers).
Mohamoud Hassan...............  21..............  Minneapolis       2006 graduate of       Killed September 4,
                                                   (moved from San   Roosevelt High;        2009 in Mogadishu.
                                                   Diego).           electrical
                                                                     engineering student
                                                                     at U. Minnesota;
                                                                     vice president
                                                                     Somali Student Union.
Troy Kastigar.................  27..............  Minneapolis.....  1999 graduate of       Killed in Somalia.
                                                                     Robbinsdale Cooper
                                                                     High; criminal
                                                                     record; convert to
                                                                     Islam.
Mustafa Ali Salat.............  18..............  Minneapolis.....  Lived in St. Paul;     Indicted; believed to
                                                                     senior at Harding      be in Somalia.
                                                                     High; member of
                                                                     wrestling team.
Recruiters
Cabdulaahi Ahmed Faarax.......  32..............  Bloomington.....  Former combatant;      Indicted; believed to
                                                                     Divorced father of 2.  be in Somalia.
Abdiweli Yassin Isse..........  24..............  Minneapolis.....  Unknown..............  Indicted; believed to
                                                                                            be in Somalia.
Mahamud Said Omar.............  43..............  Minneapolis       Divorced father of 3;  Indicted (for
                                                   (moved from       worked as a janitor    financing
                                                   Virginia).        at the Abubaker as-    recruitment); held
                                                                     Saddiqui Islamic       in Netherlands.
                                                                     Center.
----------------------------------------------------------------------------------------------------------------
* Age is defined as when they left the United States, not necessarily age when radicalized. For alleged
  recruiters, ages are at time of indictment in 2009.

                            acknowledgements
    A preliminary version of this paper was presented in Riyadh, Saudi 
Arabia in March 2009, at the ``Conference on Countering Radicalization 
and Recruitment,'' sponsored by the Critical Incident Analysis Group 
and the Kingdom of Saudi Arabia Ministry of Interior. Content of this 
paper is also excerpted from a manuscript under review entitled, 
``Combating the Radicalization of U.S. Somali Refugee Youth: A 
Psychosocial Perspective on Counterterrorism'' by Stevan Weine, John 
Horgan, Cheryl Robertson, Sana Loue, Amin Mohamed, & Sahra Noor.
                      background on working group
    The Working Group on Somali Youth and Psychosocial Counterterrorism 
is an interdisciplinary group comprised of psychiatry, nursing, and 
public health professionals. It was formed as an outcome of a 
conference in Saudi Arabia in early March, 2009, organized by the 
Research Strategies Network, an affiliate of the Critical Incident 
Analysis Group, and the Saudi Ministry of Interior, where Working Group 
members presented a case study of the Minnesota Somalis. The Working 
Group includes U.S. and Somali members (biographies attached) who have 
worked extensively in U.S. refugee communities (Somali, Oromo, Bosnian, 
Kosovar, Burundian, Liberian), with torture/trauma- and migration-
affected persons in multiple conflict and post-conflict countries, who 
conduct NIH-funded research programs with refugee youth and families, 
and who work in terrorism studies.

    Ms. Harman. Thank you, Dr. Weine. I can't help but observe 
that you described the motivation behind our bill of 2 years 
ago, the one that passed the house 404-6.
    Dr. Cragin, please summarize your testimony in 5 minutes.

STATEMENT OF R. KIM CRAGIN, PH.D., SENIOR POLICY ANALYST, RAND 
                          CORPORATION

    Ms. Cragin. I would like to thank the Chair and Ranking 
Member and the Subcommittee on Intelligence, Information 
Sharing and Terrorism Risk for inviting me to testify on the 
subject of terrorist recruitment inside the United States, 
and--I just hit the talk button? Yes? Also to take this 
opportunity to commend the committee for recognizing the 
importance of this topic.
    Over the past 14 years, I have explored what motivates 
individuals to become terrorists as well as what influences 
communities to sympathize with terrorist groups. This research 
can be found in two RAND publications, including ``Dissuading 
Terror'' and ``Social Science for Counterterrorism.'' I would 
be happy to speak further about other studies in a classified 
session.
    Unfortunately, recent events have brought this topic to the 
forefront. As you know, last week, five young American men were 
arrested in Pakistan, allegedly trying to make their way to 
training camps along the Pakistan-Afghanistan border.
    Although we have yet to learn fully about the intentions of 
these five men, they appear to be one of several recent 
examples of U.S. citizens and residents who have been 
susceptible to recruitment by al-Qaeda and associated 
movements.
    Indeed, examples exist of Americans traveling abroad to 
fight as well as participating in training camps abroad in 
anticipation of conducting attacks here at home.
    What happens in these training camps? Bryant Neal Vinas, 
another individual arrested on terrorism charges, has described 
activities in a Peshawar camp as follows: An introduction to 
the AK-47 and other guns, followed by a 15-day course in how to 
make suicide belts and rocketed-propelled grenades, and then 
graduation.
    So how do individuals end up in these training camps? 
Research conducted at RAND and elsewhere suggests that no 
single pathway towards terrorism exists, making it difficult to 
determine precisely how and why individuals are susceptible to 
recruitment.
    Having said that, for the remainder of my testimony I will 
address two questions--first, how do individuals generally 
progress from articulating sympathy to actively participating 
in terrorism, and second, what can we do about it?
    To answer the first question, it is useful to explore the 
radicalization processes that individuals and clusters of 
individuals have gone through, which can be understood as 
having three phases.
    In the first phase, termed availability, environmental 
factors make individuals susceptible to messages and appeals 
from terrorist groups. Of course, these factors vary according 
to individual, but they might include peer group influences or 
frustration with foreign policy.
    While the first phase can occur on the internet, the second 
phase, termed recruitment, usually occurs after contact between 
individuals and the clandestine groups.
    That is, our research, as well as others', suggests that 
recruitment works best when virtual contact has been 
strengthened through social linkages. Some potential 
recruitment nodes include prayer groups, social clubs, or even 
criminal gangs in prisons.
    The third phase of the radicalization process yields a 
commitment to action on the part of certain individuals. This 
final step has been the most difficult to isolate in research.
    In some instances, a specific grievance appears to have 
acted as a final trigger. Another common factor, at least for 
diaspora communities, appears to be participation in a training 
camp abroad.
    I am often asked what motivates terrorism. Is it ideology, 
politics, or poverty? My answer is yes, all three, to varying 
degrees.
    So how can we best intervene in this process? If 
determining how individuals become terrorists is difficult, 
then deriving intervention strategies is even more problematic.
    Our research suggests that we best intervene before 
individuals depart for training camps, because these 
experiences tend to harden their commitment towards violence. 
Yet in many instances, individuals have not engaged in illegal 
activities prior to their departure.
    These circumstances have proven to be the most difficult, 
and so I would like to focus on them for the rest of my 
testimony.
    First, beyond U.S. borders, the U.S. Government could work 
with partner nations to pressure those recruiters who have 
shown success at reaching Americans. It is well known that al-
Qaeda is interested in recruiting new fighters from the United 
States. This is not a new phenomenon.
    So as partner nations work towards muting the voices of 
recruiters who have reached susceptible individuals within 
their own countries, the United States could encourage them to 
extend these programs to focus on western recruits.
    Second, within the United States. The U.S. Government could 
work with local community leaders to develop programs that 
reduce susceptibility to messages articulated by al-Qaeda and 
associated movements.
    The case of the five youths arrested in Pakistan last week 
reportedly was brought to the attention of U.S. authorities 
through Muslim community leaders. I cannot imagine how 
difficult it was for these community leaders to call U.S. 
authorities. Regardless of the outcome, we owe them a great 
deal of respect and gratitude.
    Nonetheless, more could be done. In Singapore, for example, 
a group of Muslim scholars have worked with individuals 
arrested on terrorism charges and their families to help 
reintegrate these individuals back into the community.
    A similar model could be used for U.S. citizens and 
residents who are accused of participating in training camps 
abroad, which brings me back to the original question of how 
and why do individuals become terrorists?
    Clearly, more needs to be done to get a better 
understanding of this phenomenon, yet I would urge you not to 
leave it at that.
    As we move forward, we also need a better understanding of 
how al-Qaeda and associated movements retain the loyalty of 
their recruits and, perhaps more importantly, why individuals 
choose not to become terrorists, for if we are truly going to 
develop barriers to al-Qaeda recruitment in the United States, 
then it is equally important that we understand the motives of 
those who reject al-Qaeda's overtures. Thank you.
    [The statement of Ms. Craigin follows:]
                  Prepared Statement of Kim Cragin \1\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to Federal, State, or local 
legislative committees; Government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a 
nonprofit research organization providing objective analysis and 
effective solutions that address the challenges facing the public and 
private sectors around the world. RAND's publications do not 
necessarily reflect the opinions of its research clients and sponsors.
---------------------------------------------------------------------------
                           December 15, 2009
                understanding terrorist motivations \2\
---------------------------------------------------------------------------
    \2\ This testimony is available for free download at http://
www.rand.org/pubs/testimonies/CT338/.
---------------------------------------------------------------------------
    I would like to thank the Chair and Ranking Member and the House 
Committee on Homeland Security's Subcommittee on Intelligence, 
Information Sharing and Terrorism Risk Assessment for inviting me to 
testify on the subject of terrorist recruitment inside the United 
States and also to take this opportunity to commend the committee for 
recognizing the importance of understanding how and why individuals 
become susceptible to recruitment by al-Qaeda and associated movements.
    Over the past 14 years, during the course of my research on 
terrorism and insurgency, I have explored the topics of what motivates 
individuals to become terrorists, as well as what influences 
communities to sympathize with terrorist groups. This research can be 
found in a number of RAND publications, including Terrorism and 
Development, Dissuading Terror, and more recently Social Science for 
Counterterrorism: Putting the Pieces Together, which was released in 
the Spring 2009.
    Both issues--individual motivations and community support--are 
important to understanding the challenges of terrorist recruitment 
inside the United States. For example, potential exists for terrorist 
groups to persuade U.S. citizens and residents to ``pick up a gun'' and 
conduct attacks either in the U.S. homeland or abroad. Potential also 
exists for terrorist groups to garner financial or other forms of 
support from local communities inside the United States. Indeed, recent 
events have brought the topic of terrorist recruitment to the forefront 
of U.S. homeland security.
    As you know, last week, five young American men were arrested in 
Pakistan, allegedly trying to make their way to militant training camps 
that exist along the Pakistan-Afghanistan border. Initial reporting 
suggests that these individuals pursued at least two different avenues 
to reach these training camps--an Islamic school and an extremist 
organization--and yet were rebuffed due to their ``western demeanor'' 
and lack of language skills.\3\ Although we have yet to learn fully 
about the intentions of these five men, they appear to be one of 
several recent examples of U.S. citizens and residents who have been 
susceptible to recruitment by al-Qaeda and associated movements.
---------------------------------------------------------------------------
    \3\ Waqar Gilani and Jane Perlez, ``5 US Men arrested in Pakistan 
Said to Plan Jihad Training,'' New York Times 11 December 2009; Jerry 
Markon, ``Pakistan arrests 5 N. VA men, probes possible jihadist 
ties,'' The Washington Post, 10 December 2009.
---------------------------------------------------------------------------
    In September of this year, for example, Najibullah Zazi, a Denver 
resident, pled not guilty to conspiracy to detonate bombs inside the 
United States. Zazi reportedly traveled from the United States to 
Pakistan in August 2008 and, according to investigators, participated 
in a militant training camp in that country.\4\ Upon his return to the 
United States, Zazi allegedly purchased chemicals to build a bomb, 
planning to detonate it in New York City, although he never followed 
through with the attack, apparently tipped off that he was under 
suspicion by authorities.\5\
---------------------------------------------------------------------------
    \4\ Kevin Johnson, ``Alleged terror threat seen as `most serious' 
since 9/11; suspect bought chemicals to make bombs, feds say,'' USA 
Today, 25 September 2005.
    \5\ Michael Wilson, ``From Smiling Coffee Vendor to Terror 
Suspect,'' New York Times, 26 September 2009.
---------------------------------------------------------------------------
    Similarly, the FBI arrested David C. Headley, formerly known as 
Daood Gilani, in October 2009 and accused him of scouting potential 
targets in advance of the November 2008 attacks in Mumbai that killed 
165 people.\6\ And, in October 2008, Shirwa Ahmed blew himself up in 
Somalia, becoming the first known American suicide bomber. He, along 
with approximately 20 other young Americans over the past 8 years, had 
traveled to Somalia to participate in local training camps and fight 
with al-Shabaab.\7\ So examples exist of U.S. citizens and residents 
traveling abroad to fight in local insurgencies, traveling abroad to 
fight U.S. forces, as well as participating in training camps abroad in 
anticipation of conducting attacks here at home.
---------------------------------------------------------------------------
    \6\ Peter Slevin and Spencer S. Hsu, ``Arrests in Chicago drive 
home global nature of terrorism threat,'' Washington Post, 20 November 
2009.
    \7\ Andrea Elliot, ``A Calls to Jihad, Answered in America,'' New 
York Times, 12 July 2009.
---------------------------------------------------------------------------
    What happens in these militant training camps? Bryant Neal Vinas, 
another individual arrested on terrorism charges who pled guilty to 
terrorism-related charges in January 2009, has provided investigators 
with unique insight. Bryant Neal Vinas, a convert to Islam, departed 
for Afghanistan in late 2007 after visiting multiple jihadist websites. 
He reportedly described activities in a Peshawar training camp as 
follows: an introduction to the AK-47 and other guns, followed by a 15-
day course in how to make suicide belts and rocketed propelled grenades 
and then graduations.\8\ Other information suggests that al-Qaeda 
training camps in Afghanistan historically also have included classes 
on political Islam, essentially in an attempt to indoctrinate new 
recruits in what some would refer to as the violent Salafi jihadi 
movement.\9\ Indeed, training camps clearly play a key role in 
solidifying individuals' commitment to al-Qaeda and associated 
movements. The question remains, how do individuals end up in these 
training camps?
---------------------------------------------------------------------------
    \8\ Michael Wilson, ``From Smiling Coffee Vendor to Terror 
Suspect,'' New York Times, 26 September 2009.
    \9\ Kim Cragin, ``Early History of al-Qaeda,'' The Historical 
Journal, November 2008.
---------------------------------------------------------------------------
    Unfortunately, research conducted at RAND and elsewhere suggests 
that no single pathway towards terrorism exists, making it somewhat 
difficult to identify overarching patterns in how and why individuals 
are susceptible to terrorist recruitment as well as intervention 
strategies.\10\ Having said that, I am going to attempt to generalize 
from the findings from our research as much as possible, while still 
providing specific examples of nuances in terrorist motivations 
whenever appropriate.
---------------------------------------------------------------------------
    \10\ Andrew Silke, ed, Terrorists, Victims and Society: 
Psychological Perspectives on Terrorism and its Consequences, 
(Chichester: John Wiley & Sons, Ltd 2003).
---------------------------------------------------------------------------
    For the remainder of my testimony, I will address two basic 
questions. First, how do individuals progress from articulating 
sympathy for al-Qaeda and associated movements to actively 
participating in terrorist activities? And, second, what can we do 
about it?
                 how do individuals become terrorists?
    To answer this question, it is useful to explore the radicalization 
processes that individuals and clusters of individuals have gone 
through as they progressed from being sympathetic to the al-Qaeda 
worldview to being willing to ``pick up a gun.''
    These processes can be understood as having three separate and 
distinct phases. In the first phase, termed ``availability'' 
environmental factors make certain individuals susceptible to appeals 
from terrorist groups. Of course, these factors are likely to vary 
according to individual, but they might include being brought up in a 
family that articulates a violent Salafi worldview, frustration with 
local government policies, peer group influences, or frustration with 
foreign policies.
    For example, in his research on suicide bombers in the Palestinian 
territories, Ami Pedhazur has noted that one particular cell played 
soccer together prior to their recruitment into Hamas.\11\ Shazhad 
Tanweer, one of the 7 July 2005 London bombers, apparently had 
expressed frustration with U.K. foreign policy, particularly the 
conflict in Iraq.\12\ Of course, that is not to say that all soccer 
players or individuals frustrated with the conflict in Iraq are 
potential terrorist recruits, but rather, at the ``availability'' stage 
multiple factors can make al-Qaeda's appeal attractive.
---------------------------------------------------------------------------
    \11\ Ami Pedhazur, ``The Culture of Death: Terrorist Organizations 
and Suicide Bombings,'' presented at the Woodrow Wilson Center in 
Washington, DC as part of the Eisenhower Speaker Series, 17 February 
2005.
    \12\ Paul Temelty, ``An In-Depth Look at the London Bombers,'' 
Terrorism Monitor, Vol. 3, No. 15, 28 July 2005.
---------------------------------------------------------------------------
    While the first phase, ``availability'', can occur on the internet, 
the second phase, termed ``recruitment and indoctrination'' occurs 
after initial contact between individuals and the clandestine group. 
That is, our research as well as others', suggests that terrorist 
recruitment works best when virtual contact has been backed up by or 
strengthened through social linkages. In examining the second 
``recruitment'' phase, it is useful to focus on ``nodes'' or gateways 
through which individuals come into contact with terrorist recruiters, 
members or leaders.\13\ Some potential recruitment nodes include prayer 
groups, sports clubs, charitable organizations, or even criminal gangs 
and prisons. For example, in December 2001, Singaporean authorities 
disrupted a plot to attack Western as well as local targets in that 
country. According to a White Paper released by that government, some 
of the arrested individuals had been recruited through religious study 
groups in Singapore.\14\
---------------------------------------------------------------------------
    \13\ This concept also was used by Javed Ali, Senior Intelligence 
Office, Department of Homeland Security, in his testimony before the 
Senate Committee on Homeland Security and Government Affairs entitled, 
``Prison Radicalization: Are Terrorist Cells Forming in US Cell 
Blocks?'' 19 September 2006.
    \14\ ``White Paper: The Jemaah Islamiyyah Arrests and the Threat of 
Terrorism,'' Singapore Government, 7 January 2003.
---------------------------------------------------------------------------
    Importantly, these nodes vary according to country and community. 
So it is difficult to identify a laundry list of potential recruitment 
nodes worldwide. If any commonalities exist in recruitment nodes, they 
appear to be best grouped into ``diaspora communities''--so for 
example, the United States, the United Kingdom or Singapore--versus 
``majority Muslim communities, such as Indonesia, Yemen or 
Algeria.''\15\ That is, we have found some general commonality in the 
types of recruitment nodes in these locations. But al-Qaeda and 
affiliated movements have demonstrated a remarkable ability to adapt to 
different recruiting environments, adjusting both message and method of 
recruitment.
---------------------------------------------------------------------------
    \15\ See, for example, Michael Taarnby, Recruitment of Islamist 
Terrorists in Europe: Trends and Perspectives, Denmark: Centre for 
Cultural Research, January 2005; and Peter Nesser, Jihad in Europe: A 
Survey of the Motivations of Sunni Islamist Terrorism in the Post-
Millennium Europe, Norway: Norwegian Defence Research Establishment, 
2004.
---------------------------------------------------------------------------
    The third phase of the radicalization process yields a commitment 
to action on the part of certain individuals. To be honest, this final 
step has been the most difficult to isolate during the course of our 
research, because it seems to vary the most individual by individual. 
In some instances, a specific grievance appears to have acted as a 
final trigger. So, for example, Galib Andang aka Commander Robot, a 
former member of the now defunct Moro Nationalist Liberation Front in 
the Philippines, was motivated in part by the death of his grandmother 
at the hands of the Filipino Army. Other common factors, at least for 
diaspora communities, appear to be isolation from the broader Muslim 
community and participation in a foreign jihad. Somehow the process of 
participating in a training camp and fighting overseas makes 
individuals more willing to engage in terrorism back home as well.
    I should say, at this point, that my description of radicalization 
processes for individual terrorists and sympathizers is not 
particularly unique. That is, Philip Zimbardo, who is probably best 
known for his Stanford prison experiment, has observed similar 
processes with the recruitment of high school students into cults in 
the United States.\16\ But I find it a useful construct to 
understanding all the various factors that motivate individuals to 
``pick up a gun.''
---------------------------------------------------------------------------
    \16\ Philip Zimbardo and C. Hartly, ``Cults Go to High School: A 
Theoretical and Empirical Analysis of the Initial Stage in the 
Recruitment Process, Cultic Studies Journal, Vol. 2. No. 1, 1985, pp 
91-147.
---------------------------------------------------------------------------
    So I am often asked, ``What motivates terrorism? Is it ideology, 
politics or poverty?'' And my answer is, ``Yes, all three, at least to 
varying degrees.'' The key question for us today is how can we best 
intervene in this process?
                        what can we do about it?
    Unfortunately, if determining how individuals become terrorists is 
difficult, then deriving intervention strategies is even more 
problematic. As I previously implied, our research suggests that it 
would be best to intervene before individuals depart the United States 
for training camps abroad, because experiences in these camps tend to 
harden their commitment towards al-Qaeda and associated movements. Yet, 
in many instances, individuals have not engaged in illegal activities 
prior to their departure. It is these circumstances that have proven to 
be the most difficult and so I would like to focus the rest of my 
testimony on them. And, indeed, much can be learned from how other 
countries have attempted to deal with this dilemma.
    First, beyond U.S. borders, the U.S. Government could work with 
partner nations abroad to pressure those ideologues and recruiters who 
have shown particular success at reaching susceptible U.S. and other 
Western recruits. It is well-known that al-Qaeda and associated 
movements are interested in recruiting new fighters from the United 
States; this is not a new phenomenon. Wadih el-Hage, for example, 
testified that al-Qaeda focused recruitment efforts on him in 
anticipation of the 1998 U.S. embassy bombings in Kenya and Tanzania 
due to his American passport. So while partner nations, such as the 
Kingdom of Saudi Arabia and Yemen, work towards muting the voices of 
ideologies and recruiters who have reached susceptible individuals 
within their own countries, the United States could encourage them to 
extend these programs to those focused on Western recruits as well.
    Second, within the United States, the U.S. Government could work 
with local Muslim community leaders to develop programs that reduce 
their youths' susceptibility to messages articulated by al-Qaeda and 
associated movements. The U.S. Government already has established ties 
with Muslim community leaders. And, indeed, the aforementioned case of 
the five youths arrested in Pakistan last week reportedly was brought 
to the attention of U.S. authorities through Muslim community leaders. 
I cannot image how difficult it was for these community leaders to call 
U.S. authorities and, regardless of the outcome, we owe them a great 
deal of respect and gratitude. Nonetheless, more could be done.
    In Singapore, for example, a group of Muslim scholars have led a 
number of different programs to develop barriers to radicalization in 
that country. These scholars have formed a Religious Rehabilitation 
Group that works with individuals arrested on terrorism charges and 
their families to help re-integrate these individuals back into the 
community. A similar model could be used for U.S. citizens and 
residents who are accused of participating in training camps abroad. 
Similarly, several scholars who work with the Religious Rehabilitation 
Group have established their own English language blogs to refute on-
line claims by al-Qaeda and associated movements. This approach also 
could be attempted in the United States. Finally, like with efforts to 
combat recruitment into criminal gangs or cults, U.S. law enforcement 
and other entities could help local community members develop programs 
to inhibit youths' susceptibility to al-Qaeda recruitment. Notably, 
with any of these potential initiatives, it is important to emphasize 
that U.S. law enforcement should continue to partner with local Muslim 
community leaders to prevent them and others from any potential 
backlash.
    Which brings me back to the original question of--how and why do 
individuals become terrorists? Clearly, more needs to be done on the 
part of academics to get a better understanding of this phenomenon. Yet 
I would urge you not to leave it at that. As we move forward, we also 
need a better understanding of how al-Qaeda and associated movements 
retain the loyalty of their recruits. And, perhaps more importantly, 
why individuals choose not to become terrorists. For if we are truly 
going to develop barriers to al-Qaeda recruitment in the United States, 
it is equally important that we understand the motives of those who 
reject al-Qaeda's overtures.

    Ms. Harman. Thank you very much, Dr. Cragin.
    Thank you to all the witnesses. I think this testimony is 
extremely helpful. We will now proceed to questions, and I 
yield myself 5 minutes.
    To all the witnesses, let me just read a list here. John 
Walker Lindh. Lackawanna Six. Brooklyn Bridge plot. Columbia 
shopping mall bomb plot. Lodi, California sleeper cell. Sears 
Tower-Miami-FBI bomb plot. Adam Gadahn. Torrance terror cell, 
which I mentioned earlier. Fort Dix six. Somali Americans 
disappear from Minneapolis--we have just heard about that. 
Bronx terror plot. Shooting at the Arkansas military recruiting 
station. Najibulla Zazi. David Headley. Tarek Mehanna. Nidal 
Hasan. And most recently the five in Alexandria, Virginia.
    This is a long list. I don't want just to list Arab 
Americans or Muslim Americans. But this is a long list of U.S. 
residents or U.S. citizens, in most cases, who are somehow 
experimenting with terror.
    While I agree with you, Mr. Zogby, that we need a scalpel 
and not a sledgehammer, and while I agree with you, Mr. 
Macleod-Ball, that we should focus on actual terrorist acts and 
not someone's belief system--I truly agree with that--we need 
to do something here.
    We need to intervene. Hopefully we will not intervene after 
the fact, but we will find exactly the right place to intervene 
to prevent these terror actions. So our second two witnesses, 
Dr. Weine and Dr. Cragin, have suggested ways to learn more.
    I would like to ask our first two witnesses what strategies 
do you think we, the United States Government, this 
subcommittee, should undertake to intervene at the right moment 
to prevent acts of terror by people like the list I just read 
against the United States?
    Mr. Macleod-Ball. Thank you, Chair Harman. I think there 
were a lot of good ideas expressed by all of the witnesses here 
today. I would reiterate our point that you start with the 
violence. You don't start with the ideology.
    Adding to the list, we could also add any number of Ku Klux 
Klan----
    Ms. Harman. I agree with you.
    Mr. Macleod-Ball [continuing]. Weather Underground or----
    Ms. Harman. Right.
    Mr. Macleod-Ball [continuing]. Symbionese Liberation Army. 
There are any number of examples of terrorist action within our 
country.
    By starting with the ideology and saying that you are going 
to define those--you are going to examine those acts, you are 
predetermining the outcome in a way that your conclusions will 
tend to cast aspersions on the entire Muslim community.
    Ms. Harman. I agree with your definition of the problem. 
What is the solution?
    Mr. Macleod-Ball. The solution is to start with a different 
universe of actions. As you are examining historical events--
actions--you look at what moves different people in different 
contexts from a nonviolent to a violent situation.
    I think that is the best way--first of all, you are looking 
at actual historical events and not making assumptions about 
the future, but you are also--by definition, if you are 
starting with a different universe of people, you are not 
predetermining a focus on the Muslim community.
    Ms. Harman. Dr. Zogby.
    Mr. Zogby. You asked the question of the hour, and it is 
the critical one. Let me just make a couple observations about 
the list you read. In many ways, they can be broken up into 
different groups. But with the exception of two, they were all 
stopped. They were stopped because we were doing things right.
    The cooperation with the Muslim community, the outreach to 
the Muslim community, the significant work of law enforcement 
using the tools that are available to them and working with the 
communities, has been effective in every one of these instances 
in stopping.
    In the case of Nidal Hasan, which is, of course, a horrific 
act of terror and of--and an awful incident, law enforcement 
failed. I think we have to say that.
    I mean, there was a failure here--failure to collect the--
to connect the dots, and because the--our hands were tied 
because of restrictive ways we approach guns, gun laws, and gun 
information, the fact that he went and bought a weapon that is 
not to be used for hunting or for sharpshooting but had--we 
have records of this man in contact with someone that we have 
on a terrorist watch list.
    We have all of the information that you gave us of his very 
questionable--I am sorry, Congressman McCaul--of his 
questionable activities while in the military, and yet the dots 
were never connected. The different agencies weren't talking to 
each other about what was going on there.
    That is a problem that we, I think, will have to look more 
closely at. But what to do about it? I think we are doing 
things right. We are stopping these people. We are invigorating 
cooperation between law enforcement and the communities.
    We are changing the tone of the debate in our country that 
I think is bringing more people forward ready to cooperate, 
which is why people have turned in people and are working with 
law enforcement to stop this problem.
    Ms. Harman. Thank you very much.
    My time has expired. I just want to observe that Dr. Cragin 
said we ought to say thank you to the law-abiding members of 
these communities who do turn in family members or point law 
enforcement toward problems with family members, and so I think 
that is a very good suggestion, and I would like to say thank 
you to those community members.
    We have a full group of Members. That is because this 
hearing is so interesting. I would like to ask unanimous 
consent that Ms. Jackson Lee, who is not a Member of the 
subcommittee, can sit with us and ask questions after other 
Members. Any objection? So ordered.
    Now I yield 5 minutes to the Ranking Member, Mr. McCaul.
    Mr. McCaul. Thank you, Madame Chair, again.
    Behind me is an illustration of homegrown terrorism arrests 
since November 2008, and I think that this picture really says 
it all and why this hearing is so important.
    Again, Madame Chair, thank you for holding this hearing. 
This is a threat. You know, I was a Federal prosecutor and a 
thought itself is not a violation of the law.
    So, Mr. Macleod-Ball, I agree with you that a belief or an 
ideology is not a prosecutable offense. Always a conspiracy 
requires an overt act. An overt act is the first step towards 
completing a conspiracy which does make it a violation of the 
law.
    However, it always starts with an ideology. It always 
begins with a radical idea or a belief that eventually does 
come to fruition--not in every case, thank God, but in the 
cases that we have seen. We have been able to stop a lot of 
these cases, fortunately, but some have not.
    I think the Hasan case, Dr. Zogby, is a very good 
illustration of a case that failed, was a whole failure of law 
enforcement, as you said. I think that was absolutely correct.
    When we had a major in the Army, the United States Army, at 
the largest military installation in the United States just 
north of my district having communications with one of the top 
al-Qaeda recruiters in Yemen, having communications with 
Pakistan--this information apparently was in the hands of the 
Joint Terrorism Task Force in Washington, one of the members 
from the Department of Defense, and yet that information was 
not shared with the very base where the major resided.
    Don't you think General Cone, who I talked to at the 
memorial service--we buried 13 soldiers there, and I talked to 
the wounded, who said, ``Yes, he screamed Allahu Akbar as he 
shot us.'' Don't you think that General Cone may have liked to 
have had that information that he had a major at his base that 
was communicating with a top al-Qaeda recruiter in Yemen?
    Yet that didn't happen. That information was not shared 
with the military, with Fort Hood. I know that may be a little 
bit--I think it is on point, because this man radicalized, and 
what we don't know is whether he radicalized all on his own or 
whether he had a little bit of help from the outside.
    What can we do--and I have so many questions I could bring 
up today, but that case is a classic case of failure. What can 
we do better to ensure that there are no more Hasans out there? 
As General Cone told me, how many more are out there?
    They are a threat to our United States military because we 
know al-Qaeda targets the United States military. It is out of 
their play book. They targeted Fort Dix. They bring back their 
play book time and time again, like they did with the World 
Trade Center, and like they will probably try to do with the 
Capitol.
    How can we stop another Hasan case from happening again? I 
will direct that to anybody on the panel--Dr. Cragin, I don't 
know if--you seem to--anybody who would like to tackle that.
    Ms. Cragin. Sure. I mean, I can start, and then please feel 
free. I would say, first of all, I would like to get away from 
the term ``self-radicalization.'' There are some examples of 
that, but overwhelmingly there is normally a mentor--I think 
the term was used--involved in the radicalization process.
    So like I said during my testimony, I mean, one thing is to 
actually start focusing some attention on these mentors. That 
attention doesn't necessarily have to be law enforcement 
attention, but I think that is one way to do it.
    But I also think, unfortunately--you know, Timothy 
McVeigh--I am from Oklahoma, so Timothy McVeigh also got 
through, right? So I think that we are not going to be able to 
stop all of the lone wolves, and that is sort of an unfortunate 
reality that we are facing today.
    Mr. McCaul. Anybody else on the panel?
    Dr. Weine. Yes, I think that prevention is the right word, 
and the question is how you think about prevention.
    I think it is important to think about prevention not 
strictly from a law enforcement point of view but, say, from a 
community policing point of view and from a public health point 
of view, where we try to establish relationships, change 
people's thinking and change people's behavior in such a way to 
catch them upstream before they go too far down the line.
    I believe we are not doing that right now. I think 
counterterrorism as I see it in the microcosm of, say, the 
Somali community in Minneapolis is limited to FBI criminal 
investigation. With all due respect to those people who do that 
important work, I think that there are still shortcomings in 
the area of community policing and preventive approach.
    There are good people in those communities, parents and 
community leaders, who want to support these efforts, but they 
are not involved and engaged. That is what prevention means. 
That is what I think we have to be doing more of.
    Mr. McCaul. Dr. Weine, let me just say, I completely agree 
with you. I worked as a Federal prosecutor, worked with Joint 
Terrorism Task Forces.
    I think one thing that we need to do a better job--is 
reaching out to the Muslim community and getting involved in 
the community, where we can identify the 1 percent or less than 
1 percent of potential threats.
    Ms. Harman. Mr. McCaul, let Dr. Zogby respond to your 
question briefly.
    But to all Members, let's try to stick strictly to the 5 
minutes to be fair to everybody.
    Mr. Zogby. It does not begin with ideology. Ideology is the 
paint on the surface that is already there. He said, ``Allahu 
Akbar.'' He did not mean ``Allahu Akbar.'' What he meant was, 
``I am going to kill you, I hate you, I am angry, really 
angry.''
    It is sort of like--you know, when I used to teach 
religion, I used to say, ``The meaning of a word is how it is 
used.'' If somebody says, ``Oh, Jesus Christ,'' that doesn't 
mean that they are a devout believer. It usually means they are 
angry. Or, ``Oh, Jesus Christ,'' I am excited. We cannot allow 
the abuse of language to mask purpose, to take our attention 
off what is going on.
    That is why I agree with Mr. Macleod-Ball. You judge the 
actions, not the language. In another era, as Peter Bergen said 
on CNN the other night, Major Hasan may have turned to Maoism 
or may have turned to some other ideology.
    The language of the moment to describe anger, to describe 
the conflict we are having and the deep alienation that I am 
feeling, is this language of religion. Do not let them confuse 
us with what the real is--with what is really going on here, 
because that is when we start using the sledgehammer.
    As I am watching the media, CNN covering this problem of 
what happened in Pakistan, showing Muslims on the Mall on 
Service Day, when they were committing themselves to service to 
our country, praying, that was the backdrop.
    Ms. Harman. Thank you.
    Mr. Zogby. The message this sends to Muslims is very 
dangerous, and we have to be careful. Judge the action. The 
susceptibility will be there. We have to deal with the 
susceptibility, not with the language they use.
    Ms. Harman. Thank you, Dr. Zogby.
    I now yield 5 minutes to the Chairman of the full 
committee, Mr. Thompson.
    Mr. Thompson. Thank you very much, Madame Chair.
    Excellent panel. Thank all of you for your testimony.
    One of the things I want to do is try to broaden the 
discussion. We just saw a broad panel of where arrests have 
taken place, but it only focused on a very narrow, tight arrest 
for certain kinds of things.
    One of the things I want us to do as a committee is look at 
acts of violence, extremism, in its totality, not in a very 
narrow focus, so that we can understand that the debate here is 
important, but is a part of a broader debate that we need to 
take as a committee.
    Specifically, for each witness, can you identify for the 
committee the broader violent extremist potential that exists 
here, and what groups may be part of it here in this country, 
so we can see the bigger picture of the discussion?
    I will take Dr. Zogby, and we will go down.
    Mr. Zogby. I can just tell you that not being someone in 
law enforcement himself but in constant contact with law 
enforcement because that is what we do in our work, they are 
deeply concerned since--and it is no secret--since the election 
of our President with white supremist movements that are a lot 
of chatter and a lot of danger and a lot of concern.
    I think that that is an area that is something we have to 
look at, because the susceptibility, especially in an economic 
downturn, and especially in time of war, and especially now 
with this sense of revenge about Government is a problem. I 
think we have to take a very close look at that and continue to 
look at it. It is the other language that is used today.
    Mr. Thompson. Thank you.
    Mr. Macleod-Ball. I want to say this in the right way. I 
don't want to name groups and cast aspersion on them simply by 
naming them in this context.
    But historically, there are many groups in our country, 
some of which I referenced in my testimony and in my previous 
answer, and there are either remnants of those groups left 
today or there are people who believe the same things and act 
to further those beliefs.
    Mr. Thompson. Yes. Well, and I guess--and I accept that, 
but if you can talk about the ideology rather than the name of 
the group, if that would give you a little----
    Mr. Macleod-Ball. Well, let me just--let me go about it 
this way. Does Timothy McVeigh have more in common with an 
Islamic terrorist or with any Christian believer?
    I think most people would say with any Islamic terrorist. 
It is not the belief that is the defining moment. It is as Dr. 
Zogby said, that is the paint that may be present. It may be 
present in any situation.
    But you start with the propensity for violence, however 
that may be caused, and then you add the background material 
that gives the person the basis for going forward after he or 
she already has the propensity to violence.
    So I am very reluctant to talk about it in that way, 
because I think it starts with the factors that create the 
propensity to violence, which some of the other witnesses 
mentioned in their testimony.
    Dr. Weine. Thank you. I am concerned about the place where 
three broad processes interact, so No. 1 is failed states, 
people who come from failed states, where the--No. 2 is where 
there are violent extremist movements and organizations. No. 3 
is that they now exist in refugee or migrant communities in 
this country that face many challenges of daily life.
    So the Somalis certainly fit that, but so do several other 
communities that we have to be concerned about. I think this is 
very challenging.
    The other broad thing that concerns me is the issue of 
movement, migration, secondary migration within the United 
States.
    So I would like to share this fact with you, that there are 
presently, say, about 84,000 Somalis in Minnesota. Probably 
only about 20,000 of them were resettled there. That means that 
about 60 more thousand of them came from another State in the 
United States where they were primarily resettled.
    This represents a shortcoming, systematic shortcoming, in 
the U.S. refugee resettlement system, because when they move to 
another State, they don't come with services attached. So this 
is a setup for underserved refugee community.
    We might think about what other populations in the United 
States are--also fit that pattern. Thank you.
    Ms. Cragin. Just to answer your question quickly, in my 
written testimony, I talk about the model of the radicalization 
process. We actually stole it from--we derived it from Phil 
Zimbardo's work on cults.
    So if you were to broaden the community with that 
radicalization process, it would include both criminal gangs 
and cults, and that is one way of broadening it without looking 
at ideology or naming specific groups.
    Mr. Thompson. Thank you very much.
    Ms. Harman. Thank you, Mr. Chairman.
    Mr. Dent for 5 minutes.
    Mr. Dent. Thank you, Madame Chair.
    I will start with Dr. Zogby. My regards to your cousin 
Charles. First, you know, we are often told that the United 
States is less susceptible to homegrown terrorism than European 
nations, and I think you sort of alluded to that earlier in 
your remarks.
    Do you believe that is still the case? You know, if the 
United States is less susceptible, could you go into why?
    Mr. Zogby. The important thing to understand here is that 
having dealt with and gone and talked to some of these 
groupings in Europe--actually, it was something the State 
Department and another program I did with BBC was interested in 
kind of seeing the differences between what is going on here 
and going on there.
    The degree of alienation is fundamentally different there 
than here. Here, the problem exists on the margins. There, it 
is much more widespread.
    The Somali kids didn't tell their parents. The Pakistani 
kids here in--the kids here in northern Virginia didn't tell 
their parents. That tells you something right away.
    The community base of support in Europe for this problem of 
radicalization is very different than here, where the problem, 
as I said, exists on the margins and the parents actually turn 
them in, or their peers will turn them in.
    So I say that becoming American--the process of becoming 
American is determinative in this instance. It is the more 
compelling force that is the antidote to this radicalization 
and this sense of alienation.
    I think we have to--and that is why I say at the end of the 
day what we have to do is more of what we do, and do it better, 
instead of less of that.
    Mr. Dent. Well, the reason I asked the question--because 
you just saw the map that was held up a moment ago. When you 
saw all these recent incidents around the country, it has 
caused me to think--I always was under the impression, too, 
that Europe was more susceptible to this type of radicalization 
than the United States.
    But given what has happened in recent weeks and months, I 
have started to question that in my own mind.
    Mr. Zogby. That is why I suggest, sir, if you look at each 
one--take them apart, see where the patterns are and where the 
patterns aren't. The Fort Hood one is fundamentally different 
than Minneapolis.
    You know, I would just say to Dr. Weine that one of the 
things from Somali experts I understand--and people in that 
community in Minneapolis--is that since the withdrawal of 
Ethiopian forces, the lure of Shabaab has gone down.
    The important thing again in Minneapolis is that the 
parents turned them in----
    Mr. Dent. Yes.
    Mr. Zogby [continuing]. And the United States attorney had 
the full cooperation of the parents, and the parents looked 
upon this arrest as a relief, because the people who were 
preying on their kids were gone.
    I think that, you know, we are doing it well. It is not the 
mainstream. It is the margins. We have to continue to ensure 
that it stays on the margins.
    Mr. Dent. Thank you.
    Dr. Cragin, you know, we have received a variety of 
opinions, mixed opinions, on how Government should engage 
religious leaders to address the issue of radicalization.
    As you know, some say there should be increased cooperation 
between law enforcement and Muslim clergy and religious 
leaders, since they are certainly in a position to deter Muslim 
teenagers from going down the path of violent radicalization.
    Others suggest that Government involvement would likely 
backfire, causing moderate voices we hope to encourage to be 
discredited as Government propaganda.
    Do you believe that the Government and law enforcement 
officials should more actively engage with Muslim religious and 
clergy leaders? How can this be done without discrediting these 
leaders?
    Ms. Cragin. Sure, absolutely. Let me start by saying one 
thing--and to agree with Dr. Zogby on the fact that I don't 
think that we see the susceptibility level here as we do in 
Europe.
    But one thing that you do see that is common between the 
two of them is a separation of these cells or these bunch of 
guys from their own Muslim community, which makes law 
enforcement and relying on Muslim communities to interact with 
law enforcement even more problematic.
    That is, they are not separating from American society 
themselves, but they are even separating from their own Muslim 
community a little bit. So this makes this engagement even more 
problematic.
    But I do tend to think that engaging, like the way our law 
enforcement are, with local Muslim community leaders is the way 
to go, and that there--if you do not--if you are wanting to 
protect civil liberties and you are not wanting really 
intrusive law enforcement tactics, then the way to go is to 
continue to engage the Muslim community leaders, and--I agree 
with Dr. Zogby--like we have done successfully.
    I think these are really--we have some really great 
examples of how this has worked in this country.
    Mr. Dent. Well, thank you.
    For Mr. Macleod-Ball, do you believe that domestic 
radicalization is a very real threat in the United States?
    Mr. Macleod-Ball. There are many threats in the United 
States, and that is one among them. I think perhaps we are 
talking about some semantic issues when we talk about the 
objections that we have voiced in the past to some of the 
subcommittee's ideas.
    In my written testimony--we had 1.3 million violent crimes 
in the United States reported in 2008. Is that a threat? 
Certainly it is a threat. Part of that threat is what you 
mentioned.
    There are some people that are motivated through ideology, 
certainly. There is many people who are motivated through 
something other than ideology. So the ideologically based 
threats--sure, they exist, and we ought to be investigating 
those along with the various other threats at the committee's 
discretion.
    Mr. Dent. Yield back.
    Ms. Harman. Thank you very much.
    Mr. Carney, 5 minutes.
    Mr. Carney. Thank you, Madame Chair.
    You have stimulated so many questions, and we don't--this 
will be a long series of hearings, I hope, at some point.
    Dr. Zogby, I appreciated your making the distinction, 
forcing us to make the distinction. I would like your opinion, 
though. Do you think the case of Somalia, as we have spent a 
lot of time talking about today, is somehow fundamentally 
different than those who are recruited to expand some sort of 
international caliphate?
    Mr. Zogby. It may very well be. That does not mean that we 
should not have taken measures to protect these kids----
    Mr. Carney. Of course.
    Mr. Zogby [continiuing]. From recruitment and engagement in 
activities that are antithetical to who we are and what we 
want.
    But there is a fundamental problem here, and if I can just 
take a moment to look at it, it is the problem of exile 
politics. I think, you know, ultimately, we are going to have 
to make a decision as a country what route we go on this one.
    I remember growing up in a situation where there was no 
such thing as dual citizenship. Now you can have dual 
citizenship with many countries all over the world. Now you can 
vote in elections in countries all over the world while you are 
in this country as an American citizen.
    Now you can be a Bush administration official in the 
Department of AID and you can go and run for office in Lebanon 
for parliament and then decide whether or not you want to come 
back to the United States or not.
    You know, and I spoke with the JDL before, and these guys 
floating back and forth and doing whatever they do--I think we 
have some issues here we have to look at as a country.
    I grew up in a situation where when I saw the pictures of 
George Washington crossing the Delaware, I was on the boat with 
him. When I saw Lewis and Clark on the frontier, I was with 
them. I mean, it was my story.
    We are inhibiting that story from becoming the dominant 
American narrative when we are in a situation today where we 
encourage dual citizenship, people voting in other elections, 
and the next step is, ``Oh, my God, Ethiopia invaded my 
country. I am going to go and defend my country.''
    We have to ask questions. When our Department of State 
funded the elections in Iraq in this country and the co-chair 
of the Republican Party of San Diego is quoted in the L.A. 
Times saying, ``At last, for the first time in my life, I will 
get to vote,'' and I said, ``What the heck is going on here? 
You just voted in the Presidential election in this country. 
That is your country here. Make a choice, man.'' I think we 
have to look a that.
    That is not going to make--I am not going to be popular 
with both parties, and even with people in my own community, 
but I do think that if we do not take the issue of becoming 
American--take it seriously, make it work, all that it means, I 
think we are running down a road here that is going to 
ultimately get us in trouble everywhere.
    Not just in the Middle East but as conflicts emerge 
everywhere around the world, we are going to have people 
saying, ``That is my fight. That is my fight. IRA, that is my 
fight. Israel, that is my fight. Arabs, that is my fight. 
Pakistan, that is my fight.'' That is not a good situation for 
us to be in as a Nation.
    Mr. Carney. What do you suggest in terms of public 
diplomacy?
    Mr. Zogby. Public diplomacy--I think that we have to tell 
the American story. We have to tell it there. We have to tell 
it here. We have to encourage people becoming American here.
    We have to work with the full gamut of institutions and the 
processes that have worked for us in the past to make these 
kids feel that there is an opportunity for them to fully 
participate.
    The fact is if we hire more Arab Americans and Muslims in 
Government, if we open law enforcement to their ranks, if we do 
more of what we do well, the lure of overseas will pass by them 
completely.
    They came here or their parents came here to be part of 
this. We have to make sure that they are a part of it and 
identify with it fully.
    Mr. Carney. Thank you.
    Dr. Weine, I want to switch gears a little bit, and since 
you are from Illinois I have a question concerning the 
potential movement of hundreds of Gitmo detainees to Illinois.
    This is for all of you, actually. Is that going to have 
some kind of impact on recruitment, do you think? Is it going 
to be a damper to recruitment? What is your opinion on the 
transfer of the detainees?
    Dr. Weine. I know that there is a vigorous political 
dialogue taking place in Illinois about that, and I am really 
not in a position to comment on that.
    I think that in terms----
    Mr. Carney. No, no, I am not asking about the political 
dialogue. I am asking from your professional opinion, is this 
going to have some kind of impact----
    Dr. Weine. Well----
    Mr. Carney [continuing]. On recruitment?
    Dr. Weine [continuing]. I think that recruiters are very 
clever, and recruiters are always looking for a way to 
manipulate events to their advantage. I am sure that recruiters 
will find a way to manipulate that to their advantage. That 
doesn't mean that that shouldn't be done--moving Gitmo 
detainees into Illinois--or not. I think that should be 
evaluated on a different level.
    But I think that the point in terms of prevention is we 
need to find ways to stay one step ahead of where recruiters 
are.
    Mr. Carney. Mr. Macleod-Ball?
    Mr. Macleod-Ball. Although I am not a psychiatrist, I would 
like to add that unless the the movement of the detainees also 
includes a commitment to due process and to actually provide 
rights to all of the detainees to determine definitively what 
their status is, then I think that would serve as the basis for 
recruiters seeking to point to the United States treating folks 
with something other than justice.
    Mr. Carney. Dr. Cragin.
    Ms. Cragin. I have always been in favor of shutting down 
Guantanamo Bay because it has been used as big rhetorical 
device in the al-Qaeda media.
    But I would agree that wherever you decide to move it you 
would want to give the detainees due process in order to tamp 
down as much of that rhetoric in the future, yeah.
    Mr. Carney. Thank you.
    Ms. Harman. The gentleman's time has expired.
    Mr. Broun of Georgia is recognized for 5 minutes.
    Mr. Broun. Thank you, Madame Chair.
    Dr. Zogby, your last testimony was extremely refreshing to 
me, and I have long been a believer that the hyphenization of 
America is one of the biggest problems we have with 
radicalization and all these other things.
    I think it is true in Europe because if you look there, you 
see the radicals coming out of a community that is not 
allegiant to their own country or not even allegiant to the 
European Union but is allegiant to that radical element within 
their community.
    I think a common language--English as the official language 
of America--is absolutely critical for us to help further 
exactly what you are saying. I think stopping the dual 
citizenship is absolutely critical, and all those things.
    I appreciate your testimony in that regard, because I could 
not agree with you any further.
    Yes, sir.
    Mr. Zogby. I did not mean some of that, and let me just 
explain what I do mean. What I do mean--I do oppose the dual 
citizenship, and I do think we have to move people from exile 
into the mainstream.
    But it is wonderful that I am an Arab American. American is 
the noun. Arab is the adjective. I have a heritage that I am 
proud of. It gives me no end of joy----
    Mr. Broun. Well, I apologize for interrupting you, but just 
for the sake of time----
    Mr. Zogby. Yes.
    Mr. Broun [continuing]. We all come from different 
backgrounds. We have different beliefs. We have different 
heritages. But being an American----
    Mr. Zogby. Yes.
    Mr. Broun [continuing]. Is the most important thing, in my 
opinion, for all of us.
    Mr. Zogby. The meaning of that being American is that we 
eat spaghetti, and we eat tabouli, and we eat latkes, and we 
are, in fact, this diverse culture of people that all has 
become America, and America has become changed, too.
    Mr. Broun. I agree with you, and we ought to focus on being 
Americans.
    Mr. Zogby [continuing]. Focus on that and the American 
story. I agree with you on that part.
    Mr. Broun. Well, I was glad to hear you----
    Mr. Zogby. Thank you.
    Mr. Broun [continuing]. Your earlier testimony. But nowhere 
is the threat more real than in the alarming manifestation of 
homegrown terrorism and the mutating nature of the terrorist 
threat.
    Fort Hood was a horrible example of radicalization turning 
from ideology--an ideological expression to terrorism and an 
act.
    Dr. Cragin, it appears that political correctness is a 
tremendous roadblock to addressing radicalization and homegrown 
terrorism, and I would very much like to hear your thoughts on 
how we can address that issue.
    Ms. Cragin. I have actually had people say this to me 
before, that political correctness is a roadblock to addressing 
the issue of radicalization. I would say in my experience that 
that is not necessarily the case.
    There is some discomfort in dealing with the term of 
ideology. But in this sense, to me, ideology is--I think as 
this panel has suggested, is sort of a broad brush or is a 
rhetorical device that tends to be used.
    But when it comes down to individual motivations, ideology 
doesn't end up being--research would demonstrate the ideology 
doesn't end up being one of the primary motivating factors in 
most cases.
    So to me, political correctness, you know, if there is a 
bit of sensitivity, maybe, but I would say political 
correctness necessarily hasn't been a barrier, at least in the 
academic community, to address this problem. It has really been 
more an interpretation of what this ideology means.
    Mr. Broun. Well, I disagree with you. I think the Fort Hood 
incident--political correctness was the biggest barrier to 
preventing that terrorist attack that occurred down there, the 
very tragic terrorist attack that--one of the soldiers that was 
killed was from my district, and I think political correctness 
was very much in play there.
    Changing tracks--I just throw this out--I have got just 1 
minute left. I believe very firmly that on-the-ground human 
intelligence within communities, whether it is within the 
radical Muslim community, whether it is within the radical 
ecoterrorist groups, whether it is with the radical animal 
protection groups or the others that have been mentioned--I 
would like you-all's comment about my belief that--on-the-
ground human intelligence I think is going to be one of the 
best ways, if not the very best way, of preventing the 
radicalization in--and to stop the process before it gets to a 
point of actually causing a terrorist attack.
    So I throw it out just for the few seconds I have left.
    Mr. Macleod-Ball.
    Mr. Macleod-Ball. Thank you. I think I disagree and agree 
in part with you. I don't think we can make--be making 
decisions based upon individual associations with groups, no 
matter how bad their reputation may be.
    However, if law enforcement, acting properly, determines 
that there--that it has probable cause to believe that a 
particular set of individuals are appropriate to investigate 
because they anticipate or have committed unlawful acts, then 
certainly, they ought to go and investigate.
    Mr. Broun. But you want to wait 'til they actually commit 
the terrorist attack or some--or break the law before we 
intervene, and we have got to intervene before that.
    Mr. Macleod-Ball. Not necessarily. When you have probable 
cause to investigate, it doesn't necessarily mean that an 
unlawful act has already been committed. You know, we are sort 
of talking hypotheticals here.
    But the law enforcement community has a fairly rigid set of 
procedures. It has a basis for determining when to open a file, 
when to open an investigation in a particular set of 
circumstances.
    Those rules have been in place and policies have been in 
place for quite some time. Members of this committee, I am 
sure, are aware of those procedures better than I am, having 
worked in the law enforcement community in the past.
    Mr. Broun. Madame Chair, my time has expired, but I would 
appreciate a written response from all of you all regarding 
that question.
    Thank you, Madame Chair.
    Ms. Harman. That request is acceptable to all of you? Thank 
you very much.
    Now I yield 5 minutes to Mr. Green, of Texas.
    Mr. Green. Thank you, Madame Chair.
    I thank the witnesses for appearing today.
    There are words from South Pacific that are important, I 
think. The song in South--a song has the words ``you have got 
to be taught'' in it. You are not born an evil person, a 
terrorist. You have to be taught. So you do have some mentoring 
that takes place along the way.
    In the process of being taught to hate, we have the 
opportunity to negate this process. But we cannot do it 
inconsistently. We really have to develop consistency in 
dealing with hate, hate speech, hate crimes.
    We are right to talk about how persons of ill repute from 
other places can do dastardly deeds, but we must also, with an 
equal degree of fervor, condemn those who are born right here 
who have been terrorizing people for scores of years.
    We have to use the same language when we talk about the KKK 
and talk about the evil that they represent and be as committed 
to eliminating the KKK and its evil as we are to eliminating 
others who would perpetrate evil. The consistency has to be 
there.
    Having lived under circumstances where fear was something 
that I had to cope with, I know that we have not done enough to 
be consistent with our rhetoric. We cannot allow a certain 
amount of tolerance of hate to exist for some and expect to 
overwhelm others with our desire to do good.
    Dr. King reminded us it is not just the work of evil people 
or the actions of the evil people but the inaction of good 
people that really can make a difference in what we do.
    Good people, people of good will, have to use free speech 
just as people of evil will use free speech. Free speech has to 
have a price when it has hate in it.
    The price doesn't have to be incarceration. The price has 
to be people of good will stepping forward and saying, ``This 
is wrong. This is hate that you are preaching.''
    We have got to get people to a point where they will do 
this, and it has to permeate the entirety of the community to 
be efficacious. So my question to all of you is this.
    How do we make sure or how do we perfect a process that is 
consistent in approach to evil-doers and not allow homegrown 
evil to receive less attention than evil that may come from 
without that is equally as bad?
    The KKK, I say to you, is an evil organization with evil 
intent. Rarely will you hear it said as I have just said it. 
But we have no problems condemning other evil. Evil is evil. We 
cannot tolerate it under any circumstances.
    I will start with the lady, your commentary on how we can 
consistently deal with this, please.
    Ms. Cragin. Sure. I think as I mentioned earlier, I can't 
even begin to say how impressed I have been with Muslim 
community leaders in the United States who have done this, who 
have stood up and said, ``No, this is wrong.''
    I would agree with you that----
    Mr. Green. If I may just intercede for a moment, I want 
people to stand up and talk about how evil the KKK is, too.
    Ms. Cragin. Sure, and----
    Mr. Green. That is what I want to get----
    Ms. Cragin [continuing]. So I was going to say----
    Mr. Green. You know, that is the example.
    Ms. Cragin. Right. I was going to say so that is a nice 
example for the rest of us for doing the same thing.
    The one thing I would add to that is then protecting those 
who speak out from backlash, I think, is an important component 
of this as well, and so that there is almost a bandwagoning 
effect, and so that more and more people feel free to speak 
out.
    But absolutely, I would say they are an example to all of 
us.
    Mr. Green. Yes, sir.
    Dr. Weine. I think one way to think about this is you are 
talking about counter narratives, counter narratives to hate, 
counter narratives to extremism, and I think that a counter 
narrative from one corner of our society can be inspiring and 
helpful to counter a narrative--to those who want to preach 
counter narratives from other segments of society.
    They should be spoken, and they should be listened to. My 
concern, along with Dr. Cragin, is that we could be doing more, 
especially the people who are economically disempowered or on 
the margins of society, to preach those counter narratives 
against hatred and fear. Thank you.
    Mr. Macleod-Ball. I really appreciate your comments, 
Congressman. You know, the KKK grew out of a radical or 
reactionary Christian philosophy used as the--as part of its 
history.
    Yet I would say there is more in common between the KKK and 
the Islamist groups who have been--who have attacked our 
country than the KKK has with mainstream Christian values.
    That is the point, I think, of our comments, is that you 
have got to look not at the ideology that serves as the 
foundation for the organization but, rather, in their 
propensity for action.
    Whether you are looking at the KKK, or some radical Islamic 
group who has attacked us, or non-ideological attacks--look at 
the anthrax attacks, or the Columbine shootings, or any of the 
sort of non-ideological----
    Mr. Green. Let me interrupt you and ask the Chair--Madame 
Chair, would you be so kind as to let Dr. Zogby have a comment 
on this, too?
    Ms. Harman. I will----
    Mr. Green. Thank you.
    Ms. Harman [continuing]. Mr. Green. We were entertaining 
the notion of each Member having one more question. Maybe you 
would like to continue your time and have that count for your 
additional question?
    Mr. Green. I will allow this to be my time.
    Dr. Zogby, please.
    Mr. Zogby. I remember during the Clinton years the 
dialogue--the National dialogue on race was an important effort 
to engage us all as a country in an examination of who we are 
and how we relate to one another.
    He also held, I think, a rather stunning White House event 
on hate crimes that I was a participant in and found it truly 
moving. I think we need more and not less of that.
    I also think if there were--if I were to fault that effort 
in one way, it was that it was too dependent on the President 
to go from place to place, and we didn't begin a National 
program of encouraging people independently to begin this 
conversation in their communities, on their campuses, et 
cetera.
    Right after 9/11, President Bush did a rather stunning 
thing when he focused the Nation on the American Muslim 
community and said they should not be seen as the enemy. We had 
an avalanche of people in Hollywood and in various forms of 
media and politics--this House and the Senate passed 
resolutions.
    People began town meetings in their communities talking 
about it. I will tell you, the measure of our country is that 
my community, the Arab community, and the Muslim community as 
well never felt as protected and respected even in that most 
vulnerable of times, even when we were witnessing hate crimes 
like we never had before, because of the support we were 
receiving from institutions around this country. It all started 
with the President doing it.
    I think that we have an opportunity to do that again on 
many levels today and not be afraid to encourage a re-
examination and a re-commitment to what it means to be America, 
what it means to be a diverse country of many strands woven 
into a fabric that has made us great.
    If we allow that map to define us and to take those--and I 
maintain isolated events, because each of them--many of them 
are different.
    Some of them are criminal activity converted to Islam, some 
of them are people who went postal, and some of them are people 
recruited to fight in foreign engagement, not to attack our 
country, despite the fact that I think that that engagement is 
wrong and it still should be dealt with.
    All of those things are wrong, and we have to look at them, 
but they cannot define our response. That is when I said not a 
sledgehammer but a scalpel. One of the things to do is to begin 
this National dialogue not just in this hearing but among all 
of our people so that we, in fact, recommit ourselves to the--
--
    Mr. Green. I am going to have to thank you, Doctor. I am 
woefully over.
    Thank you, Madame Chair. You have been more than generous.
    Ms. Harman. Thank you.
    Thank you, Dr. Zogby.
    Members who are interested in doing this will be able to 
ask one more brief question, starting with Mr. McCaul.
    Mr. McCaul. Thank you, Madame Chair.
    Mr. Green, thank you for that questioning. I think you hit 
the issue--it is hatred, is what we are talking about.
    My grandfather was--lost his job because of the KKK because 
he was a Catholic, and it was a white supremacy--it was a 
religious extremist movement not unlike what we are seeing 
today in terms of a radical Islamic extremist movement.
    Not to categorize all Christians as being that way, or all 
Muslims as being that way, but we are talking about a radical 
form of hatred, a perverted sense of these religions, these two 
religions, taken to a radical point where action, 
unfortunately, is taken by some in a terrorist event.
    The KKK portrayed terrorism in the United States, in my 
view, you know? I think radical Islam portrays terrorism. They 
certainly did on 9/11. Maybe it is a matter of semantics here, 
but I do think the ideology and the belief system--you can't 
take it, you know, out part and parcel from the act itself.
    I think it does begin with a belief system that takes an 
individual to a point where the hatred is such--Dr. Zogby, you 
said it well. When he said, ``Allahu Akbar,'' what he meant 
was, ``I hate you.'' That is what he meant, Mr. Hasan at Fort 
Hood. That is what drove him to kill that day.
    So I think the ideology is--the belief system is the 
beginning of the process and the radical belief system.
    I think the great challenge that we have in this country is 
how, within the Constitution, to monitor activities of radical 
ideology and radical beliefs and to be able to prevent and 
deter that radical belief from going the next step into an act 
of violence.
    So with that, I--if anybody would like to comment on that.
    Ms. Harman. That was a brief question.
    [Laughter.]
    Yes, Mr. Macleod-Ball. Briefly, please.
    Mr. Macleod-Ball. Briefly, certainly. I believe I disagree 
with your statement that it starts with a radical belief. I 
think the radical belief could come in the middle. It could 
come in the end. It is the propensity to violence that really 
is the factor here.
    When you exercise your responsibility to examine these 
issues, if you exclude other ideologies--if you exclude the KKK 
from your investigation, you run the risk of missing something 
that is--that may be critical to understanding the entire 
problem.
    Mr. McCaul. I completely agree with that. I completely 
agree with that. Yes.
    Ms. Harman. Thank you.
    Mr. McCaul. Thank you.
    Ms. Harman. Mr. Carney, a question, please.
    Mr. Carney. How do you define a question, Madame Chair?
    [Laughter.]
    In the two terms I have been here, I have noticed that we 
often react to fear rather than courage. I am damn tired of 
that. I got to tell you that I was--I am very impressed with 
the panel and in what I have heard today.
    Mr. Zogby, I really want to associate myself with your 
comments on differentiation here and what we can do. To that 
end, your discussion of being a Yemeni American or an Irish 
American or whatever the case might be--how much do these folks 
see themselves as a soldier, versus citizen, in these wars that 
they are involved in?
    Mr. Zogby. They do not, and that is the important thing, is 
that the majorities of those communities see that ethnicity as 
part of their heritage and part of their origins, and the land 
where daddy came from. That is the nature of exile politics.
    It is the nature of the kids whose parents came after the 
Hungarian 1956 revolution was squashed and whose parents kept 
talking about, ``We are going to go back,'' and the kids--one 
generation are saying, ``No, this is home.''
    That is the process we have to encourage, is that sense 
that it is your heritage, it is your history, you can be proud 
of it, but this has become your new history, and this is the 
America that we become.
    I therefore think that we don't want to discourage Yemeni 
Americans from feeling proud about their heritage in Yemen, but 
what we want to do is make sure that that American side is 
strengthened and given a sense of purpose so that they 
identify--the way that they express their concern about what is 
happening in Somalia is by voting for a Congressman who is 
going to support their position on those issues, or by getting 
engaged in a political discussion about what can America do to 
change politics in Afghanistan, rather than, ``I am becoming a 
soldier because I don't really belong here.''
    It is that alienation we have to cure, and that is the key 
here.
    Mr. Carney. Dr. Weine.
    Dr. Weine. I think we should remember that these kids--a 
lot of these people who radicalize and get recruited are kids. 
They are 17 years old, 18 years old, 19 years old, in high 
school. They are not rational agents, you know, making logical 
decisions with--you know, backed by the full weight of, you 
know, a balanced view of the world.
    They can act impulsively and quickly in response to a 
charismatic person. That makes them very vulnerable, so----
    Mr. Carney. How desensitized are these kids, do you think?
    Dr. Weine. Desensitized to----
    Mr. Carney. To violence.
    Dr. Weine. Well, the ones that I know--they are not violent 
by nature, most of them. In fact, one of them wanted to be a 
doctor. They see themselves as healers, but they are 
desensitized to violence in their communities subject to a lot 
of community violence.
    One of the kids who went to Somalia was really struck by--
and wrote on his Facebook page the drive-by killing of one of 
the kids in Somalia in Minneapolis and said that could happen 
to me. I think that changed his view of the world.
    So the point I want to make is this--you know, it is kind 
of a ``it takes a village'' kind of idea, so teachers, parents, 
community leaders, not just one person in one conversation, but 
all these people have to be involved in the counter pull 
against that one recruiter, because ultimately we have got to--
we have got to convince a 17-year-old acting alone and 
impulsively to stay on our side and not to go to the other 
side.
    Ms. Harman. Thank you.
    Mr. Carney. Thank you, Madame Chair.
    Ms. Harman. Thank you.
    Dr. Broun.
    Mr. Broun. Thank you, Madame Chair.
    Quick question, I believe the only way we are going to stop 
terrorism in this country or worldwide is for the peace in the 
Muslim community. It is what we are most focused upon now.
    I think it is for peace-loving Muslims all over the world, 
in this country as well as elsewhere, to say, ``That is enough. 
We have had enough of this. We are going to put a stop to it.''
    It is true within all communities, whether it is in our 
communities with the KKK or any other communities. I think the 
way to stop this is for people to be--within that community to 
say, ``No.'' We are going to prevent it ourselves within our 
own community.
    Do you agree with that, each of you? If so, how can we 
promote that more so as a committee and as a government, from 
the U.S. Governmental perspective?
    Jump in.
    Dr. Weine. Yes, I completely agree with that. It concerns 
me--again, to take the Somali example as one indicator of 
this--that a year down the line those parents of those kids who 
went away--nobody has reached out to them.
    They are sitting there with their story. They haven't told 
their story. They have a story to tell to other community 
members. Nobody has helped them to do that, not psycho-social 
workers, not community police, not--and they feel victimized 
not only by what happened to their kids but by this lack of 
response and then by all the media attention.
    You, I think, have to find ways to support parents and 
community leaders like that not just to stand up for community 
values or participate in the community dialogue but to 
specifically counter radicalization and recruitment.
    I think the effort of a bill that was once proposed in 
general is what is needed, a Government entity to address that. 
So that is what I think you could do.
    Mr. Broun. Well, Doctor, specifically how would you do 
that, though? How would you reach out to these Somali families? 
How would you reach out to any others not only in this country 
but worldwide?
    Dr. Weine. Well, we are, and I would do it in the spirit of 
collaboration. Say, you know, ``The best protection of your 
community is going to be people in your community stepping up, 
but yet we know certain things about, say, how to prevent 
teenagers from doing other bad kinds of things like drugs, gang 
involvement or sexually risky behavior, so let's merge the 
expertise from science and community values and let's get that 
work done in community, on-the-ground kind of activities.''
    Mr. Broun. Thank you, Doctor. That was quicker than anybody 
else, Madame Chair.
    Ms. Harman. Thank you, Dr. Broun.
    Let me conclude with no questions but just an observation. 
First, we have a problem, and this subcommittee is dedicated 
and has been dedicated over many years on a bipartisan basis to 
find a solution, to find the right intervention strategies so 
that this problem of people becoming terrorists, whatever their 
motivations are, is hopefully reduced and we prevent the death 
of hundreds, thousands, of innocent Americans, probably on 
American soil, if possible. We have a problem.
    Second point I want to make is that security and liberty 
are not a zero-sum game. I have said this over and over and 
over again. You can either get more of both or less.
    I predict that if we don't work together on the right 
intervention strategies and there is another major attack or 
series of major attacks on U.S. soil, the first casualty is 
going to be our Constitution.
    I don't want that to happen, and I appreciate the fact that 
all these panelists and many others we consult don't want that 
to happen either, and therefore we need to focus on what are 
the right set of intervention strategies.
    Third point is we are not limiting our inquiry to the Arab 
American community or the Muslim American community. We never 
were limiting it. The comments of numbers of Members about a 
broader inquiry I thought were very valuable. The comments of 
the witnesses about this were very valuable. So I think we have 
built a very good record here.
    Finally, to Dr. Weine, obviously my favorite witness since 
he liked our bill, that bill was well intended. I don't think 
any of you disputes that. The goal of setting up a 
multidisciplinary commission was to give us better advice.
    It wasn't to tell us what to do. It wasn't to develop a 
legislative strategy. But it was to give us better advice so we 
would act based on information and not just based on emotion, 
or passion, or personal prejudice that any of us might have.
    So I continue to feel that--not necessarily that that bill 
has to become law--I know there are strong objections--but that 
working together on a better strategy is imperative, and I want 
to leave that message with all of you. I see people nodding, so 
you are in. You are in the tent.
    A strategy perhaps based on a refinement of that old bill, 
perhaps based on a way to go after recruiters specifically, 
perhaps based on a better understanding of good community 
policing and good community strategies, and certainly including 
the words ``thank you'' to those who are trying to help is a 
way forward.
    So I want to thank the witnesses for their valuable 
testimony and the Members for very valuable questions. If 
Members in addition to Dr. Broun have other questions in 
writing, I hope witnesses will comply.
    Having no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 11:50 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
